<html>
<title> - HOW EFFECTIVELY ARE FEDERAL STATE AND LOCAL GOVERNMENTS WORKING TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
    HOW EFFECTIVELY ARE FEDERAL STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2002

                               __________

                           Serial No. 107-167

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

85-125              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                        Justin Paulhamus, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 2, 2002....................................     1
Statement of:
    Burton, Dr. Richard, associate director, California 
      Department of Health Services; Ray Riordan, emergency 
      preparedness officer, East Bay Municipal Utility District; 
      Janet Cherry, associate, the Cadmus Group, Inc.; Patricia 
      Dalton, Director, Strategic Issues, U.S. General Accounting 
      Office; Larry A. Mefford, Associate Special Agent in 
      Charge, San Francisco Field Office; Dr. Steven Bice, 
      Director, National Pharmaceutical Stockpile, Center for 
      Disease Control and Prevention; and Ron Castleman, regional 
      director, Region VI, Federal Emergency Management Agency...    67
    Canton, Lucien G., director, mayor's Office of Emergency 
      Services, city of San Francisco; George Vinson, Special 
      Advisor to the Governor on State Security, State of 
      California; John F. Brown, M.D., M.P.A., F.A.C.E.P., 
      attending physician, San Francisco General Hospital, 
      assistant professor, University of California, San 
      Francisco; Dr. Frances Edwards-Winslow, director of 
      emergency services, city of San Jose; Mario H. Trevino, 
      chief of department, San Francisco Fire Department; 
      Prentice Sanders, Assistant Chief, San Francisco Police 
      Department; Ronald W. Cochran, laboratory executive 
      director, Lawrence Livermore National Laboratory...........    12
Letters, statements, etc., submitted for the record by:
    Bice, Dr. Steven, Director, National Pharmaceutical 
      Stockpile, Center for Disease Control and Prevention, 
      prepared statement of......................................   104
    Brown, John F., M.D., M.P.A., F.A.C.E.P., attending 
      physician, San Francisco General Hospital, assistant 
      professor, University of California, San Francisco, 
      prepared statement of......................................    41
    Burton, Dr. Richard, associate director, California 
      Department of Health Services, prepared statement of.......    69
    Canton, Lucien G., director, mayor's Office of Emergency 
      Services, city of San Francisco, prepared statement of.....    15
    Castleman, Ron, regional director, Region VI, Federal 
      Emergency Management Agency, prepared statement of.........   114
    Cherry, Janet, associate, the Cadmus Group, Inc., prepared 
      statement of...............................................    86
    Dalton, Patricia, Director, Strategic Issues, U.S. General 
      Accounting Office, prepared statement of...................   123
    Edwards-Winslow, Dr. Frances, director of emergency services, 
      city of San Jose, prepared statement of....................    48
    Honda, Hon. Michael M., a Representative in Congress from the 
      State of California, prepared statement of.................     6
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Mefford, Larry A., Associate Special Agent in Charge, San 
      Francisco Field Office, prepared statement of..............    92
    Riordan, Ray, emergency preparedness officer, East Bay 
      Municipal Utility District, prepared statement of..........    77
    Sanders, Prentice, Assistant Chief, San Francisco Police 
      Department, prepared statement of..........................    28
    Trevino, Mario H., chief of department, San Francisco Fire 
      Department, prepared statement of..........................    22


    HOW EFFECTIVELY ARE FEDERAL STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                         TUESDAY, APRIL 2, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                 San Francisco, CA.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the Phillip Burton Federal Building and U.S. Courthouse, 
Ceremonial Courtroom, San Francisco, CA, Hon. Stephen Horn 
(chairman of the subcommittee), presiding.
    Present: Representatives Horn and Honda.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; and Justin 
Paulhamus, clerk.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
IntergovernmentaL Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and their 
willingness to protect that freedom.
    The diabolical nature of those attacks and then the deadly 
release of anthrax sent a loud and clear message to all 
Americans: We must be prepared for the unexpected. We must have 
the mechanisms in place to protect this Nation and its people 
from further attempts to cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal Emergency Programs, there remain 
serious doubts as to whether the Nation is equipped to handle a 
massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for emergencies. We want those who live in the great 
State of California and the good people of San Francisco and 
San Jose and Long Beach, CA, to know that they can rely on 
these systems; should the need arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the frontlines. We want to 
hear about their capabilities and their challenges and 
concerns. We want to know what the Federal Government can do to 
help with what they may not be doing.
    We welcome all of our witnesses and look forward to their 
testimony.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.001
    
    Mr. Horn. We are delighted to have with us today 
Representative Michael Honda from the San Jose area, former 
mayor. He will be the ranking Democrat.
    We will do as we do in Washington, that the witnesses and 
especially those at the State and local level and the first 
responders, will have a summary of their written statement. I 
have read them all and they are excellent. Don't read them to 
us because we just don't have the time.
    The General Accounting Office goes with us everywhere 
because they are our arm for research and what we want to do is 
get the essence of it because your statement is automatically 
in the record when I call on you. Give us the best points. If 
we had GAO, we would have a 40-page presentation or so and they 
have done 50 studies on the subject. Hopefully there will be 
more that will help many of you.
    With that, I will swear you in following Mr. Honda's 
opening statement. I now call on him for up to 5 minutes on an 
opening statement.
    Mr. Honda. Thank you, Mr. Chairman. I would like to begin 
by thanking my colleague Congressman Steve Horn for calling 
this field hearing, and especially for his tireless work 
throughout the past decade in Congress.
    I would especially like to recognize the expertise and 
dedication in the area of information security, an issue that 
is closely related and closely impacts my Silicon Valley 
District as well as the entire Nation. Congressman Horn is 
retiring from Congress this year, and, on behalf of the entire 
California Delegation, I would like to thank him for his 
service, his dedication, and vision.
    I would like to compliment the Chair for bringing such a 
diverse group of Federal, State, and local officials together, 
and especially for allowing these State and local 
representatives to speak early in this program.
    Local civil servants, firemen, law enforcement, personnel, 
healthcare workers, and many others are on the frontlines in 
the event of a terrorist attack. We in Washington must do our 
best to ensure that they are adequately equipped and trained to 
handle any such crisis. That is why it is essential that 
Congress maintain an open dialog with our first-responders and 
be responsive to their concerns.
    States and counties are struggling financially to meet 
their homeland security needs. In the first 2\1/2\ months since 
September 11th, California local governments have encountered 
budget overruns of 13 percent in public safety. Cities and 
counties in California alone estimate over $1 billion in 
additional one-time and ongoing funding needs for 2002.
    On numerous occasions, local officials have expressed to me 
the difficulty in adequately preparing their communities and in 
equipping their first-responders. Many have been forced to 
double and sometimes triple their expenditures for everything 
from 911 operators to police overtime.
    Emergency response forces that were once considered more 
than adequate are now finding themselves under funded and 
overworked often forcing local agencies to delay maintenance 
and training, or defer the purchase of new equipment.
    Cities and local municipalities are facing a squeeze on 
many levels. As they spend more on police overtime and 
security, they face lower revenue due to an economic slowdown. 
States are facing similar challenges. This means that 
localities are not receiving as much funding as they have in 
the past in the State budget. As local agencies try to improve 
their capabilities by increasing training for first-responders, 
building better Emergency Response Systems, and making other 
needed improvements, they are forced to tap into an ever-
decreasing budget.
    The tragic and sudden events of September 11th, and the 
almost constant state of alert that all levels of government 
have been forced to maintain thereafter, have caused a 
reexamination of homeland security throughout the Nation. It is 
vitally important that the Federal Government understand this 
and act to meet unfulfilled and growing local needs.
    I hear people throw around the term ``homeland security'' 
as if it were term, a mainstay of America's vocabulary. But in 
truth, ``homeland security'' is a fairly new term, and its use 
denotes a comprehensive and coordinated approach to domestic 
defense.
    Just as the term is new, so is an effort of this magnitude, 
urgency, and expense.
    Last, I would like to share that those of us in Congress 
understand, at least the Chair and I understand our role and we 
are here to hear from the locals as to the kinds of needs that 
you are faced with on a daily basis.
    If we are going to develop and implement a comprehensive 
approach to homeland security that can deal with catastrophic 
events like biological, chemical or nuclear attacks, we must be 
sure to work closely with our colleagues at the State and local 
level to create an integrated response that maximizes all 
resources in our portfolio by minimizing delays and lack of 
coordination.
    I look forward to your testimony this morning. Thank you.
    [The prepared statement of Hon. Michael M. Honda follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.002
    
    [GRAPHIC] [TIFF OMITTED] T5125.003
    
    [GRAPHIC] [TIFF OMITTED] T5125.004
    
    [GRAPHIC] [TIFF OMITTED] T5125.005
    
    [GRAPHIC] [TIFF OMITTED] T5125.006
    
    [GRAPHIC] [TIFF OMITTED] T5125.007
    
    Mr. Horn. I thank you, gentlemen. Now, as you know, since 
it is an investigative committee of the House we swear in all 
witnesses. That includes your staff also. If they are going to 
whisper to you in the question period, we may as well get 
everybody involved.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that the six witnesses 
accepted the oath. We are delighted to have you here and we 
thank you. You have submitted wonderful statements and we are 
going to use those for a basic report to the House of 
Representatives.
    Then, as I said earlier, we would appreciate it if you 
would, in the 5 or 6 or 7 minutes, hit the high-points of what 
you have put in for the record. Let us start now with Mr. 
Canton, the Director of the Mayor's Office of Emergency 
Services in the city of San Francisco.
    We are delighted to have you here, Mr. Canton.

  STATEMENTS OF LUCIEN G. CANTON, DIRECTOR, MAYOR'S OFFICE OF 
   EMERGENCY SERVICES, CITY OF SAN FRANCISCO; GEORGE VINSON, 
  SPECIAL ADVISOR TO THE GOVERNOR ON STATE SECURITY, STATE OF 
CALIFORNIA; JOHN F. BROWN, M.D., M.P.A., F.A.C.E.P., ATTENDING 
PHYSICIAN, SAN FRANCISCO GENERAL HOSPITAL, ASSISTANT PROFESSOR, 
 UNIVERSITY OF CALIFORNIA, SAN FRANCISCO; DR. FRANCES WINSLOW, 
  DIRECTOR OF EMERGENCY SERVICES, CITY OF SAN JOSE; MARIO H. 
 TREVINO, CHIEF OF DEPARTMENT, SAN FRANCISCO FIRE DEPARTMENT; 
    PRENTICE SANDERS, ASSISTANT CHIEF, SAN FRANCISCO POLICE 
 DEPARTMENT; RONALD W. COCHRAN, LABORATORY EXECUTIVE DIRECTOR, 
             LAWRENCE LIVERMORE NATIONAL LABORATORY

    Mr. Canton. Good morning. My office represents a strategic 
capability for the Mayor of San Francisco. Our job is to 
coordinate interagency planning and to stimulate departments 
talking to each other and dealing with incidents that require 
the services of more than one department.
    I think one of the points I would like to make this morning 
is that terrorism is not new to San Francisco. We have 
experienced this over the years in the 1960's and 1970's. We 
saw shootings. We saw bombings. It is not something that we 
don't think about.
    However, even with that background, even with our history, 
without the use of Federal funding that we received from the 
Nunn-Lugar-Domenici funding in 1996, it is more than likely 
that we would not have been able to develop the capacity that 
we have today.
    From that point of view, Federal funding was absolutely 
essential to getting us interested and getting us started and 
providing us with the political will to do things.
    The other thing is that this particular program had a lot 
of benefits for us as a city. Even though the funding is small 
and had some things we had to commit to doing, it allowed us to 
increase our capability to respond. It also allowed us to work 
together better as a team so there were a lot of good that went 
beyond just what the funding provided for.
    That, however, should not be taken as an indicator that we 
are prepared for a terrorist attack. I think you will hear from 
my colleagues that, we better than anybody, understand how much 
more we still have to do.
    One of the concerns that we had about the funding that was 
provided was that it really was for first response. A first 
response without a followup capability, the ability to deal 
with the victims of a particular incident really doesn't do 
much. We realized that the type of incident that we were 
looking at would involve all hospitals and ambulance services, 
not only in San Francisco, but throughout the Bay Area.
    Our concern really was that the funding was a good start, 
but it was not really enough for everything we needed. One of 
the problems we had was that funding was based on a needs 
assessment done at a national level. They never really came 
down to us, they never asked, ``What do you need at the local 
level?'' A lot of things we consider very important to the 
area, our mutual aid programs, our ability to respond and work 
together, our ability to assist other jurisdictions, were not 
considered.
    The issue of hospitals and the problems we have within the 
San Francisco Bay Area were not addressed in any of the 
funding. Essentially, we took the money that was provided and 
took the capabilities we had existing, and tried to do as much 
as we could with what we had. Again, I don't think we should 
look at the funding received under Nunn-Lugar as meeting all 
the needs for the city of San Francisco. I think it's a good 
start. I think we've come a long way but there is still a lot 
more to be done.
    Part of the problem that we've experienced with the funding 
is, again, that it is scattered through a number of different 
Federal agencies. The application processes that are involved, 
the reporting requirements that are involved vary from agency 
to agency. In many cases we don't know when grant funds are 
available until the last possible minute and it is difficult 
for us to apply for them.
    In many cases the type of requirements that are put on us 
to get those grant funds are really completely onerous compared 
to the amount of funding that we are going to be provided. In 
many cases we have to look and say, ``Is the little bit of 
money we are getting appropriate for the level of work we are 
going to have to commit to this?''
    One of the other things that we found is a number of 
programs that have been preexisting have been diminishing in 
funds over the years. I mention in my statement about the 
Emergency Management Preparedness Improvement Grant. That money 
has seen a substantial decline in the city of San Francisco 
over the last few years.
    The other thing that we've noticed is that a lot of the 
requirements for the funds that we are provided with are 
restrictive. For example, one of our teams wanted an extra 
laptop computer. That was not allowed under a particular 
funding program and we had to submit other items. We get grant 
funds but we are not really able to make decisions about how we 
use those funds.
    We feel we need funding that allows us the flexibility to 
respond to what we feel are our needs. Part of the problem that 
we have here is the city like all the other jurisdictions in 
the United States right now, is undergoing a budget crunch. We 
are looking at a significant shortfall that is going to affect 
our ability to respond and it is going to make it very 
difficult for us to do contingency planning.
    Consequently, Federal funds are important but we need to 
decide what areas those can be used in. For us in many cases it 
is easier for us to get things through our budget, to justify 
single expenditures or capital expenditures, than it is for us 
to add additional positions for planning and for doing the sort 
of administrative work that some of these programs require.
    It's very important that as we look at how we can stimulate 
things, we look at the flexibility at the local level to be 
able to say, ``I want to use this much money for this purpose 
and this much money for that purpose,'' and give us that 
flexibility.
    What do we envision we would need? A block grant that's 
from a single source, somebody that we can deal with. We are 
more than happy to be held accountable for funds that are 
provided to us. We've been doing that for years. That's part of 
our job. What we would like to see are those requirements 
reduced to the point where they are manageable and we can give 
you some concrete evidence of what we've done.
    On the other side of the coin, there are other things that 
you will hear my colleagues speak about such as intelligence 
sharing. One of the problems that we have is it is very 
difficult for us to know exactly what's going on and what is 
happening in the intelligence community. That is even to the 
point where some of our senior law enforcement officials are 
not cleared to receive the type of information they need.
    There's very little intelligence that actually reaches us 
through the emergency management community. The State of 
California has tried to fill the gap for us but it is very 
difficult because there is no preexisting condition.
    The last thing I would like to mention is that we really do 
need some national priorities. What is it you expect us to be 
able to do at the local level? What is it we should be focusing 
on? What is important to us? Also to remember as we do this, as 
we set these priorities that we are committed at the local 
level to multi-hazard planning. We cannot forget that we have 
things like earthquakes and tsunamis that we have to deal with 
on a day-to-day basis. Any capability we develop must be able 
to be used for multi-hazard planning. Thank you.
    [The prepared statement of Mr. Canton follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.008
    
    [GRAPHIC] [TIFF OMITTED] T5125.009
    
    [GRAPHIC] [TIFF OMITTED] T5125.010
    
    [GRAPHIC] [TIFF OMITTED] T5125.011
    
    [GRAPHIC] [TIFF OMITTED] T5125.012
    
    Mr. Horn. Well, thank you. That's well said and well done. 
Since you mentioned the intergovernmental problems here on 
information, I am going to put in the record at this point 
after your testimony the letter that Mr. Shays, who is 
Subcommittee on National Security, Veterans Affairs and 
International Relations. I joined him in that, or he joined 
with me.
    That is the letter to Mr. Sensenbrenner, the chairman of 
the Committee on Judiciary, and we will have that come up when 
we get back from the District where he gets H.R. 3483, the 
Intergovernmental Law Enforcement Information Sharing Act of 
2001. I talked to Mr. Sensenbrenner before I left and came out 
here and he said that should have been done months ago and we 
are going to do it. The FBI is being very helpful on this.
    Let us go on now to the people that are really on the 
firing line. That's Mario H. Trevino, the Chief of the 
Department of Fire for the city of San Francisco.
    Mr. Trevino. Good morning. Thank you, Mr. Chairman. I would 
like to begin by thanking you for the invitation to testify 
before you. But mostly to thank you for continuing to take the 
potential threat of terrorism as seriously as you obviously do.
    The events of September 11th, as you stated previously, 
have very dramatically illustrated the responsibility that we 
in the fire service will bear in the event of a domestic 
terrorist attack.
    Our fire department here in San Francisco has since 
participated in a number of preparedness efforts and drills in 
conjunction with other local State and Federal agencies which I 
would be happy to describe for you more fully once we get the 
microphones straightened out.
    Most significantly what we've done is we have redirected 
our planning and training efforts to focus on terrorism type 
incidents. For example, in the event of a bomb-type situation 
we need to focus on training our people to be aware of the 
potential for secondary devices and to maintain the security of 
our personnel since we know that we will be unable to help 
anyone if we ourselves become injured. We are doing everything 
we can to harden the city and county of San Francisco against 
such potential threats.
    At the Federal level there is expertise, I think, located 
in various different components around the country. It seems 
that the most important message we would like to extend to you 
is what is necessary for us is a single point of contact for 
emergency agencies to deal with through the Federal Government 
so that we can not only provide input, but also receive 
information. As my companion, Lou Canton, has indicated, it is 
essential that we get up-to-the-minute intelligence information 
as it is allowed to be received by agencies such as ours.
    A second point that, I think, is very important is in the 
issue of grant funding. We are encouraged by the level of 
funding that is making its way through Congress at this time, 
the $900 million in fire grants and the potential for $3.5 
billion for homeland security.
    The point that I would like to make is it is essential that 
those funds, if past through the States, as I understand they 
will be, that process is done so without any redirection of 
those funds so that as much of the money as possible comes to 
the aid of the emergency agencies that will be responding.
    We know, and I know after 29 years of experience in the 
fire service, that in the event of such a disaster the first 
responders that you see represented here today will be alone 
and work the disaster until other assistance arrives and that 
could be anywhere from hours to days.
    I would also like to make a point of the fact that I am a 
member of the Terrorism Committee of the International 
Association of Fire Chiefs.
    We work very diligently to try and preplan not only for our 
individual fire departments, but for fire departments across 
the country and bring those messages back to them to help them 
identify funding, help them identify strategies, and to direct 
whatever efforts they can to make them as solvent and as 
effective as possible. I am prepared to answer any questions 
you may have.
    [The prepared statement of Mr. Trevino follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.013
    
    [GRAPHIC] [TIFF OMITTED] T5125.014
    
    [GRAPHIC] [TIFF OMITTED] T5125.015
    
    [GRAPHIC] [TIFF OMITTED] T5125.016
    
    Mr. Horn. Thank you. We will now move to the Assistant 
Chief of the San Francisco Police Department, Prentice Sanders.
    We are glad to have you here, Mr. Sanders.
    Mr. Sanders. I am very honored to be here, sir, and 
certainly want to thank you and your committee for having the 
interest in our first-responders and the people who are going 
to be on the frontlines in dealing with a new phenomenon in our 
American system of government.
    We have, as law enforcement, had to switch to an entirely 
new job. We are beyond not only keeping our traditional job of 
fighting crime in our streets. We are now set with a job of 
preparing for and deterring acts of violence similar to those 
of war.
    We are also looking at new systems of how we are to respond 
to massive damage. In 1996 the Nunn-Lugar bill responded to 
Washington. I responded to Washington with a team, and the team 
that you are looking at here at the table, to attempt to cope 
with something that is totally out of the American--we didn't 
have any experience at it.
    However, San Francisco, based on some prior natural 
disasters, we had a little bit of a head start. San Francisco 
received some Federal grants and we started to see where best 
to use those Federal grants, even though they were not adequate 
to cover all the things that we needed.
    What have we done to this point? In 1998 San Francisco 
purchased some protective equipment. Being police officers we 
will almost always be the first-responders when there is 
trouble, and certainly as depicted in our heros and brothers 
and sisters in New York and Washington, DC, we are the ones who 
have to run toward whatever is going on that is a catastrophe. 
We started to look at how we can protect those individuals and 
receive the type of equipment and protective clothing they 
would need.
    We also formed a Metropolitan Medical Task Force and a team 
where all safety personnel, medical personnel, and those 
persons who will be responsible for handling the very first 
stages after an event. We put together that team and started to 
setup systems to deliver services and stabilize situations 
wherever they may happen. And certainly keeping in mind weapons 
of mass destruction both chemical, biological, radiological and 
other highly explosive systems.
    What do we need? Certainly, I was very happy when I learned 
that you brought your committee here. We need funds. The 
greatest ideas in the world can't be consummated without having 
adequate funding. We are looking at the funding that we have 
and looking at the system of delivering that funding.
    We would like to work with our State and Federal people to 
see that we can get that funding in an adequate fashion so that 
we can have in place an adequate system of responding to the 
kinds of catastrophes that our world now tells us that exist.
    That is an overview of what we have done. Let's talk about 
what we've planned. Law enforcement is in an entirely new 
learning mode. The San Francisco Police Department developed 
the five-phase program to begin to answer mass casualty 
incidents. We also have been holding tabletop exercises and 
drills with the other members of our team so that we learn to 
work as a team. Like any other good team, each party knows 
their part in the play and carries that part out.
    We focused a great deal on schools because if there would 
be a catastrophe there, whatever catastrophe may happen in our 
city, we want to be sure that our young people are able to, 
first of all, be safe and able to coordinate a system that can 
reunite them with their families at the earliest possible time.
    The responsive procedures we are setting-up, and we're 
certainly learning from one another, our extension of our 
police procedures and handling of violent mass casualty 
incidents. We have coordinated among all of the other 
jurisdictions, public safety jurisdictions within our 
jurisdictions and neighboring jurisdictions.
    What's up now? Deterrents and response. Deterrents have now 
become, as I pointed out--there are people among us who would 
bring this upon us. We have setup deterrents and then created a 
response form methodology for responding to it.
    I will be happy to answer any questions, and certainly 
inside of the document that I gave you is a detailed look at 
the plans for San Francisco. Again, we appreciate you coming 
and showing interest in our city.
    [The prepared statement of Mr. Sanders follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.017
    
    [GRAPHIC] [TIFF OMITTED] T5125.018
    
    [GRAPHIC] [TIFF OMITTED] T5125.019
    
    [GRAPHIC] [TIFF OMITTED] T5125.020
    
    [GRAPHIC] [TIFF OMITTED] T5125.021
    
    [GRAPHIC] [TIFF OMITTED] T5125.022
    
    [GRAPHIC] [TIFF OMITTED] T5125.023
    
    [GRAPHIC] [TIFF OMITTED] T5125.024
    
    [GRAPHIC] [TIFF OMITTED] T5125.025
    
    [GRAPHIC] [TIFF OMITTED] T5125.026
    
    [GRAPHIC] [TIFF OMITTED] T5125.027
    
    Mr. Horn. We thank you now only for your oral statement but 
your written statement as well. That was very helpful.
    We now go to Dr. John Brown, the Attending Physician for 
the San Francisco General Hospital and Assistant Professor at 
the University of California, San Francisco. For those that 
didn't know they had a campus in San Francisco, they have one 
of the world's greatest medical schools in dental, I guess, and 
nursing is still there. I remember seeing it when Earl Warren 
was still Governor and that was one of his great contributions. 
Thank you for coming.
    Mr. Brown. Thank you, Representative Horn and 
Representative Honda. I appreciate the opportunity to talk with 
you. I am Dr. John Brown, the medical director of the San 
Francisco Emergency Medical Services System. I also work as an 
attending physician at the Emergency Department at San 
Francisco General Hospital.
    I would just like to highlight a few areas of the testimony 
I've submitted to you. First, I want to say that we have come a 
long way in the 4-years of our participation in the 
Metropolitan Medical Response System Process. We have 
established the multidisciplinary Metropolitan Medical Task 
Force to upgrade our abilities to respond in the field to any 
terrorist attack or event.
    We have a very detailed concept of operations and response 
plan for biological threats. We have trained a large number of 
personnel, most is medical and public safety, including the 
hospital personnel. And we have conducted some major drills in 
that area and distributed a level of decontamination equipment 
and personal protective equipment to all the hospitals in our 
system.
    We, do need however, to sustain this effort and we have a 
dire need for continuing funding of the MMRS program. We need 
sustained funding for the areas of our pharmaceutical cache of 
equipment and supplies in case of--to be able to respond 
immediately in case of a terrorist attack.
    We need to enhance our ability to take care of large 
numbers of casualties in the field quickly. We need to enhance 
our training of public safety and healthcare providers. We need 
improved decontamination equipment for our personnel and a 
cache of equipment and supplies at the treatment facilities 
themselves.
    Finally, we need to expand our drills and exercises to 
include drills within our region and increasing and improved 
drills without State and Federal partners.
    I would like to concentrate most of my testimony on the 
current status of our healthcare system. The healthcare system, 
especially the emergency-care system, is very stressed and has 
little excess capacity to deal with the large number of 
casualties that an attack of weapons of mass destruction might 
generate.
    I think without our funding levels being preserved, we will 
be sliding backward to the level of preparation where we were 2 
or 3 years ago which was not as good. We will obviously do the 
best we can with what we have in any circumstance, but years of 
cost-cutting at the Federal and State levels in healthcare and 
healthcare-training programs have left us with little in 
reserve for large-scale emergencies.
    Currently, I am recommending that we develop a surge 
capacity in San Francisco to be expanded in order to handle a 
weapons of mass destruction incident. We do rely on our 
regional partners, the other hospitals, and healthcare systems 
in our region to assist us in time of disaster.
    However, the American Hospital Association did a report in 
1999 that found a decrease of 8.1 percent in the number of 
emergency departments nationwide since 1994. In that same 
period there's been a decrease in total in-patient hospital 
beds of 15.6 percent. Our capacity is diminishing throughout 
the country.
    During the attacks on the World Trade Center and Pentagon 
of September 11, 2001, San Francisco had a peak hospital bed 
availability of 198 in-patient beds. This meant that with 
optimal notification and time for mobilization, which is 
approximately 3 to 4 hours, a total of 198 hospital beds were 
available in all 10 of our hospital facilities to treat any 
victims from an attack if we had had an attack in San Francisco 
on that day. While these are in-patient beds only, not 
emergency department treatment spaces, we have a lot more of 
those. Emergency departments face similar constraints.
    Ambulance diversion rates, which are a marker for how busy 
emergency departments are, have been going up slowly over the 
past several years. We average in San Francisco 6 percent 
ambulance diversion during the summer months and 12 percent 
during the winter. Any terrorist attack that were to take place 
during this high diversion period would mean very little 
capacity available to treat additional victims.
    We do rely on only one level-one trauma center which is San 
Francisco General Hospital which adds vulnerability to our 
system. We have no permanent medical helicopter landing 
facilities in San Francisco that we could utilize to transfer 
patients rapidly.
    With appropriate funding, disaster hospital capabilities 
can be incorporated into the current system by several 
mechanisms; increasing the current stock of hospital beds, 
increasing the size of current emergency departments, opening 
new emergency departments, having a disaster hospital 
capability constructed and the ability to utilize that rapidly, 
being able to convert sub-acute facilities such as skilled 
nursing facilities, skilled nursing beds into acute beds, and 
then developing a Federal disaster hospital response such as 
the hospital ships or fleet hospitals that are in the military 
system.
    I thank you for your time and attention. I would be happy 
to answer questions.
    [The prepared statement of Dr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.028
    
    [GRAPHIC] [TIFF OMITTED] T5125.029
    
    [GRAPHIC] [TIFF OMITTED] T5125.030
    
    [GRAPHIC] [TIFF OMITTED] T5125.031
    
    Mr. Horn. Thank you very much. We will get into a lot more 
of this because you've made a whole series of good points in 
your written paper and we will be working that one over for 
questions.
    We now go to Dr. Frances Edwards-Winslow, the Director of 
Emergency Services for the city of San Jose.
    Dr. Edwards-Winslow. Good morning, Representative Horn and 
Representative Honda. It's an honor to be here with you this 
morning to share some information about my city, San Jose, the 
capitol of Silicon Valley and the largest city in the Bay Area.
    We have a long history of involvement in civil defense in 
San Jose going back to the 1950's and the cold war period. We 
have continued to develop our capabilities and emergency 
preparedness from that time forward looking at dual use as an 
important focus for us.
    San Jose is aware of many natural disasters. This is 
earthquake month and, in fact, at this moment California is 
holding a duck-and-cover drill throughout the State, sponsored 
by the Office of Emergency Services, to remind all of us that 
disasters can come with no notice.
    Because of this basis, we were able to rapidly join the 
Nunn-Lugar-Domenici program to create some new capacities in 
the city of San Jose building on our existing capacities. We 
had existing Neighborhood Watch programs, Community Emergency 
Response Team, and Safe School Initiatives all in place in 1997 
when we, like San Francisco and 26 other American cities, were 
invited to join the Nunn-Lugar-Domenici program and begin 
receiving Federal assistance to enhance our capabilities for 
emergency response, especially for explosions, chemical 
attacks, and biological attacks related to terrorism and other 
hostile actions.
    The Nunn-Lugar-Domenici program provided direct funding to 
the 27 selected cities. This money came to us through 
contractual arrangements and other agreements with our Federal 
partners. We performed specific work and in exchange they gave 
us financial and other kinds of support so that we could, as my 
colleagues have already described, establish the Metropolitan 
Medical Task Force to respond at the field level, a 
Metropolitan Medical Response System to care for patients, 
including physicians offices and hospitals, as Dr. Brown has 
described.
    We received training, equipment, and supplies. However, at 
this point we have no promise of sustainment of these efforts 
we have bought at such a great expense. The city of San Jose 
spent $1 million in police overtime alone in the first year of 
our participation in this program. In order to be a very active 
partner with our Federal colleagues, we need to ensure that the 
Federal Government continues to be our partner with us in this 
extremely important multi-use effort.
    Our biggest expense at this time is the cost of training 
our personnel. Police and fire personnel generally cannot 
receive adequate training in an on-duty mode. They need to be 
in an off-duty environment which usually means overtime is paid 
either to the student sitting in the classroom or someone in 
the field back-filling for that student.
    In addition, we have developed pharmaceutical stockpiles 
which have been described by my colleagues to some degree. My 
testimony includes a larger list. This material generally has a 
shelf-life of about 5 years. We have estimated that we will 
need $300,000 every 5 years to sustain our existing level of 
pharmaceuticals which is not actually adequate for the size of 
our community.
    It is barely adequate for the immediate emergency response 
needs. We recognize and appreciate the development of the 
National Pharmaceutical Stockpile by our colleagues at the 
Department of Health and Human Services. But for 12 hours, at 
least, we will be on our own.
    The Push Package will then arrive with the help of the 
National Guard. We hope to get that distributed efficiently but 
then the larger longer-term care requires the deployment of the 
National Pharmaceutical Stockpile which has to come from a 
vendor managed inventory at various places in the United 
States. Local preparedness is what will save lives. Patients 
must be rescued and treated in the first few hours in order to 
make a significant difference in the outcome for them.
    Furthermore, to make this kind of patient care possible, 
requires two levels of surveillance and epidemiology. 
Explosions, radiological events, and chemical events are self-
announcing. We know immediately that the event has happened and 
roughly how many victims we have to deal with. Biological 
events will be stealth events, unknown until victims begin to 
be ill because many of the illnesses present as flu-like 
symptoms initially.
    Dr. Brown and his colleagues will be challenged to 
differentiate between flu season events, for example, and an 
outbreak of something that was induced by a hostile partner. 
We, therefore, need to greatly enhance our surveillance and 
epidemiology capacity not only in the event of terrorism, but 
also to improve the public health of our country and citizens.
    We need to find ways to support emergency preparedness of 
our hospitals. Dr. Brown has touched on that but I want to 
emphasize that our hospitals today are not prepared. They are 
not prepared for an earthquake. They are not prepared for a bad 
hazardous materials accident. They are definitely not prepared 
for a terrorist attack.
    We have no surge capacity left in our system. Here in 
California as a former member of the Seismic Safety Commission, 
I want to remind you that in 2010 we will close still more 
hospital facilities because of their seismic weaknesses. We 
need some Federal assistance in finding the right answer for 
balancing current needs, potential disaster response needs, and 
catastrophic events that we all surely hope will not happen.
    Medicare and insurance currently give no money to hospitals 
to provide ``Environment of Care'' activity to ensure that 
disasters can be appropriately responded to and this needs to 
change.
    Finally, I want to emphasize the very, very difficult 
position that our elected officials are in at the local level 
in California. Because of Proposition 13 they are already 
dealing with very straightened budget available to them. The 
demands from the community for many types of services continue 
to exist. Neighborhood services, traffic calming, and 
environmental issues go on and develop as our communities 
enlarge.
    We are the capital of the Silicon Valley. Our colleagues in 
San Francisco are also very involved in high-technology. We all 
hope to continue to work with our colleagues at the Federal 
level so that we can provide community services and support for 
this vibrant part of our national economy. Thank you.
    [The prepared statement of Dr. Edwards-Winslow follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.032
    
    [GRAPHIC] [TIFF OMITTED] T5125.033
    
    [GRAPHIC] [TIFF OMITTED] T5125.034
    
    [GRAPHIC] [TIFF OMITTED] T5125.035
    
    Mr. Horn. Thank you. You have given us a lot of things to 
think about and we will work that into questions.
    Our last presenter on panel one is Ronald W. Cochran, the 
Laboratory Executive Director of the Lawrence Livermore 
National Laboratory, our friends across the Bay.
    Mr. Cochran. Thank you, Mr. Chairman and Congressman Honda. 
It's a privilege for me to be here with you today to talk about 
some of the things that Lawrence Livermore is doing to help 
State and local governments.
    I will discuss that but I also want to shift a little bit 
in the direction of deterrence and early detection. If we can 
deter these weapons of mass destruction events or get rapid 
detection if there is the start of an event, say a biological 
attack, then we can minimize the response problems that people 
are going to have.
    I think that my colleagues here have identified a great 
capability to respond to disastrous events, and that's very 
important. However, if we can prevent them from happening, that 
may give us an even greater leverage in being prepared for the 
future.
    Most of you know, I think, about Lawrence Livermore as a 
nuclear laboratory but in recent years we have also expanded 
into the areas of biological and chemical weapons and threats. 
The terrorists have now demonstrated that they hope to use what 
I call our infrastructures against us--our aircraft, our 
computer systems, entry into our borders, ports and so forth.
    By investing in technology I think that we can continue to 
enjoy the freedoms that we have by being better able to deter 
or prevent and detect these threats.
    Starting with the nuclear area, our Nuclear Threat 
Assessment Program is readily available to all States. That is 
the program which evaluates threat letters, for example, to 
determine whether they represent a viable threat or not. We 
have been doing that now for about 20 years.
    We also have membership in all of the emergency search team 
activities for nuclear events. We have in particular for the 
local areas a radiological assessment program where we provide 
technical and operational expertise to agencies in the event of 
a radiological incident or emergency. We do things like respond 
to the situation if someone has a threat of a truck, for 
example, that has been triggering radioactive alarms. We can go 
in and tell them whether or not that's a valid problem.
    We even have a rapid deployment capability called 
``HOTSPOT'' where we can be deployed to any location by 
military aircraft to provide local radiological field support. 
We have developed a lot of sensors for detecting and tracking 
nuclear materials. We actually were working with the county of 
Los Angeles to do a potential test for being able to track the 
movement of radioactive materials in case there were a 
terrorist threat.
    Turning to the bio-terrorism area, we have actually 
developed some very interesting biological detection 
instrumentation. It's based on looking at the DNA signatures of 
the materials, the pathogens, that would be a threat. We are 
developing the DNA signatures of all the threat pathogens that 
one might be interested in and working with the Center for 
Disease Control and prevention to validate those. Then we will 
distribute them to the public health agencies.
    Additionally, we made a technology breakthrough in that we 
now have handheld instruments that can detect within a very few 
minutes whether you have a biological threat or not.
    In the past, in fact in the somewhat distant past, the only 
way to detect this was to watch people and see if they were 
getting sick or not. Then more recently there have been ways to 
detect it within a day or two. These current units actually are 
units that the first responders can take into the field and 
know within a few minutes whether they are faced with a real 
biological threat or not.
    We are developing a system called BASIS which is Biological 
Aerosol Sentry and Information System which was actually used 
at the Salt Lake City Olympics for checking in the air to get 
rapid detection of any biological release that might be 
threatening to the people there.
    Now, at the Salt Lake City Olympics we hadn't automatized 
it yet. We've still got some work to do, but the device 
actually works so you can get rapid detection of any 
contaminants in the air of that type.
    I will talk some more about some of the technology for 
prevention, but we also provide support to State and local 
agencies in the area of atmospheric releases. We have a 
capability called the Atmospheric Release Advisory Capability 
which we operate at Livermore. It is available to track the 
movement of toxins anywhere in the world at any time. State 
agencies can call on this capability if they have concerns 
about a release. We've actually tracked toxins in rivers as 
well as toxins in the air. This is something that is provided 
as a service.
    Additionally, we have a forensic science center which can 
do analysis of chemicals and biological agents to tell whether 
or not there is a real anthrax threat, for example. We can do 
that very, very quickly.
    Turning back to some of the things that we still need in 
the prevention area, there's a pressing need for technologies 
to improve the screening of passengers, baggage, and cargo at 
airports and ports. We are looking at a wide variety of 
technologies including computer tomography, x-ray scanning, 
gamma-ray imaging, neutron interrogation, and ultrasonic and 
thermal imaging to be able to do this.
    As you know, at present there are techniques for checking 
baggage and checking people and, to a limited extent, checking 
cargos at shipping ports, but they still have great 
limitations. We need to improve those and we are working to do 
that.
    We are establishing at Livermore a national test bed so 
that companies, for example, who are developing capabilities 
for checking cargo containers would have a place to checkout 
the performance, the advantages and the limitations of their 
equipment. We will be operating that based on direction from 
the Department of Energy to provide that capability for the 
Nation.
    We have developed some other technologies which I think are 
useful to first responders. For example, we developed a micro-
power radar device which can see through up to about 30 feet of 
rubble. We actually tested that at the World Trade Center. If 
there is someone still alive under the rubble, it can detect 
movement from breathing. It may make it possible to find people 
that you can't locate otherwise very easily.
    We also have remote monitoring instruments that analyze the 
hazardous gases coming off a location like the World Trade 
Center. We have these mounted on aircraft and we have used 
those to let first responders know what they were getting into.
    For the State of California, we have done a great deal of 
vulnerability and risk assessment looking at bridges, dams, and 
other structures. Based on some of our analyses, steps have 
been taken to protect the bridges that weren't taken before.
    We have helped the California Highway Patrol find ways to 
stop large tanker trucks filled with fuel which are mobile 
missiles. This has been a recent development. We are very 
pleased with some of the steps that have been taken there.
    In summary, effective defense against terrorism is going to 
require the integration of science and technology with the 
operations, because the stuff we develop is no good unless the 
people who need to use it can use it. You must be certain that 
you can take it into the field, it will work, it won't fall 
apart, it will be durable, and give you accurate answers. That 
is what we are working on.
    The events of September 11th have lent a new urgency to our 
efforts. We are working even harder to try to get these 
instruments, which have been in development for some years into 
the field and into commercial hands. As more money becomes 
available with the Nation's response to the attacks, we will be 
able to move faster. Thank you very much.
    Mr. Horn. Thank you. We will now start the question period. 
I will take the first 5 minutes. Mr. Honda will take the next 5 
minutes. We will do that until we are worn out or thereabouts.
    On this issue of x-rays in particular, Customs has major 
needs for these containers. I happen to have both the biggest 
ports in the United States, Long Beach and Los Angeles. 
Together they equal Singapore which is the world's largest.
    But in those containers we never know. It's about 2 percent 
now. It was 1 percent and now it's 2 percent. In other words, 
100 containers come off and they look at one or two. Is there a 
body in there? With that Chinese gang in Shanghai where they 
have charged $30,000 to get one of these young people into the 
United States, obviously they don't have $30,000 but the labor 
crowd in this country in the garment industry, in restaurants, 
so forth.
    What they do is they have an indentured servant and they 
make up the $28,000 and the person works it off. Where our 
Labor Department has been for the last 10 years I will never 
know but they ought to be going in there. I happen to have been 
an assistant to the Secretary of Labor under Eisenhower and 
when we saw those conditions, we moved right in. We saw it in 
migrant workers.
    My boss came out and personally got rid of the lousy 
conditions they had in the Central Valley. What we need is to 
let the Customs official know there is somebody who has a body 
there so nobody makes a terrible mistake. When you are talking 
about 1.6 million containers in the Alameda corridor between 
those two ports, Long Beach and Los Angeles, and every 4 months 
it's 1.6 million, that's a lot of containers moving all over 
America. Do you have any thoughts on that, where we are 
getting, and how we can have Customs use it? What else could 
Customs use?
    Mr. Cochran. Yes, sir. As you point out, that's a very, 
very difficult problem. People are working on that. At present 
the best thing that they have is basically an x-ray machine 
which they can use and can see under many circumstances. In 
other words, if the container is not fully loaded, for example, 
and if you have a good person who can interpret the signal they 
are getting back on the TV screen, they can catch things like 
people or other illicit materials coming in.
    Those are in the early stages of being on the commercial 
market but you can buy those. They are somewhat expensive at 
present. I think that cost will come down. They do require a 
very highly skilled operator to monitor what they see going 
through and to be able to interpret it.
    The direction that we are trying to go is to leap beyond 
that, to go to something which will not only give you a good 
interrogation when the container is not fully loaded, but get 
to one that will actually check the hardest thing we can check. 
For example, a container that is fully loaded and perhaps has a 
nuclear weapon in the middle of it could be reliably detected.
    Those are harder. You probably can only do those with high-
energy neutrons. That is one of the things we are looking at to 
see if we can accomplish it. We plan to have a test unit within 
the next few months to actually see if we can reliably do a 
chemical analysis of what's in the container without damaging 
either people or other things that might be in the container. 
At present the x-rays are about the best we have.
    Mr. Horn. Well, thank you on that. I want to move to 
another question. I particularly want to know how law 
enforcement is doing it in San Francisco. When we started this 
series of hearings in Nashville, Tennessee, it was very clear 
that with the great military forts that are in Tennessee and 
with their helicopters and hospitals with the very fine medical 
school, Vanderbilt, what faulted was that the frequencies 
didn't work. They can't communicate with each other. How much 
of that--I've heard from many chiefs of both fire and law 
enforcement that apparently a lot of the frequencies are still 
sitting around with the Federal Communication Commission.
    I remember 10 years ago, or 15 at the university where I 
was president, we had exercises in Los Angeles County. Guess 
what? We couldn't get it because all of the frequencies were in 
the east. Some of that finally got to the west.
    Commissioner Kelly of Customs unfortunately didn't stay 
there long enough because he knew the situation and now he's 
back in the police department of New York. We need to do 
something. I just wondered what the chiefs are doing.
    Mr. Sanders. At this time communications is a tremendous 
problem throughout law enforcement, because historically we are 
very jurisdictionalized in the United States. The city next to 
us, for example, there are times when we can't contact them. 
This is an urgent issue, not only here in San Francisco but on 
the boards and panels that I participate in statewide.
    Communications is an intelligence at the top of the list. 
Certainly there is technology and I join Mr. Cochran in 
integrating technology with human resources. We have much of 
that technology available but in order to take advantage of it, 
again, it comes back to funding. Finding a way to find the 
necessary moneys to integrate technology so that we can talk to 
one another.
    In our tabletop exercises over the past several years we 
have found this to be a recurring problem and there has been 
some plans put forward that work. Again, when you go to do 
upgrade work on old communication systems and to integrate them 
into what we need in modern times, we do need the additional 
funding and we hope that we can certainly tie in a partnership 
with the Federal Government.
    Mr. Horn. Any other thoughts on that?
    Mr. Trevino. Yes, sir, Mr. Chairman. Let me add that as you 
may know, police and fire here in San Francisco operate using 
what is called the 800 megahertz radio frequency, very commonly 
used across the country. We also know that in the event of a 
disaster such as an earthquake the 800 megahertz system can get 
overloaded and will go down. That has been demonstrated in 
several cases.
    There is also the potential for different agencies whether 
they be law enforcement, emergency medical services, fire, or 
others to use different radio frequencies and, thus, as you 
said, limit our potential ability to communicate.
    Now, radio in reputability systems do exist primarily based 
on military technology but once again, just to echo Chief 
Sander's statement, they are expensive. The one that I am 
thinking of, the TRP-1000, is $50,000 for one unit.
    Once again, funding remains an issue and I think it's 
important to note the fact that the City and County of San 
Francisco spent a lot more money for preparing for terrorism 
situations than we ever receive in from any other source. That 
does, again, speak to our hope for Federal funding.
    Mr. Horn. Mr. Canton, you want to comment on that?
    Mr. Canton. If I could just add to that. It's more than 
just a problem of procuring radios locally or different sets. 
There is the issue of no national standards on how we would use 
these radios, no set frequencies that we would use that were 
all on a common band.
    I think probably the best example of how something can work 
is the system that the European government is using now called 
TETRA. If we look to that as sort of a model, that's where we 
would like to be able to get to, where, while we work 
individually on our own radio frequencies day to day, in the 
time of an emergency there are common frequencies that we can 
share with any law enforcement agency from any State, from the 
Federal Government, from any outside agency.
    We really don't have that right now. Even if we were to all 
procure the same radios, we operate on different bands, 
different frequencies, different talk groups, and there are no 
national standards and no idea of when we are going to get the 
types of frequencies we need.
    Mr. Horn. Chief Sanders.
    Mr. Sanders. Yes, Congressman Horn. To show you the 
seriousness of this problem, next month, in May, San Francisco 
is holding a regional and State level communications exercise 
in order to evaluate very precisely where we are and then take 
a look where we can go and maybe connect and make some 
connections that we can solve this problem until we find a 
universal solution to the problem.
    Mr. Horn. Mr. Cochran, you want to comment on that?
    Mr. Cochran. I have very little to add to what they have 
said already. I think that the problem is one that has been 
around for quite a while. There are improvements that can be 
made in going to a standard frequency.
    Perhaps that is something we can help in a little bit. I 
think there are commercial companies who could actually do 
that. Perhaps Congress should encourage them to focus in on 
this because this is something that is needed throughout the 
country. It's not just a problem here. Thank you.
    Mr. Horn. I now yield 10 minutes to my colleague. Oh, Dr. 
Brown.
    Dr. Brown. If I just might add one comment. In the 
healthcare field we have also realized the need for this 
communication. One of the first actions we took after the 11th 
was to issue emergency communication policies that utilized our 
current communication systems between hospitals.
    We have a computer that links the hospitals called HART. It 
also links us with San Mateo County and our regional partners 
there. We have now required 800 megahertz radios in all 
ambulances both public and private. We conduct regular 
communication drills. In the case of the hospitals, 
communication drill compliance is tracked on a weekly basis and 
we provide that feedback to the hospitals. I am pleased to say 
that before we started this, we had about 20 or 30 percent 
compliance. Now we are heading up to 100 percent compliance. I 
think we also can use the tools that we have in a better 
fashion to lick this communication issue.
    Mr. Horn. Thank you. Now 10 minutes for my colleague.
    Mr. Honda. Thank you, Mr. Chair. I think Dr. Brown probably 
answered one of my concerns, is that you talked about the lack 
of hospital beds in the case of an emergency or a spike in 
needs. Yet, the daily cost of maintenance of a hospital is 
based upon how much it cost to maintain a system. There's got 
to be a balance.
    What I heard you say is there's a system already in place 
that you developed in the case of an emergency that you would 
be able to deploy and utilize other hospitals pretty much like 
what the fire fighters do in terms of mutual assistance in 
deploying first responders, medical personnel, and those kinds 
of things that are to address the rescue triage in attendance 
of victims. Is that correct?
    Dr. Brown. That's correct, sir. What we have done is to 
develop our emergency care plans or multi-casualty incident 
plans to take into account the utilization of regional 
resources. It is also important to note that we have developed 
the capacity to deploy field resources so we can setup field 
treatment centers or field-care clinics that will provide a 
level of minimum care, but at least that care will be available 
to the patients that are triaged to be needing less care. That 
can be deployed from within the city relatively rapidly in the 
order of a few hours.
    We have tested that. During our millennium celebrations, 
New Year's Eve 1999 through 2000 we partnered with several 
groups including the U.S. Army Reserve in deploying field-care 
clinics. We had eight of them throughout the city. We had them 
utilizing austere standards of care, testing our supply and 
resupply procedures, our communications, and so forth. We do 
have some capacity to increase our level of low treatment or 
treatment of less injured individuals.
    The problem we run into is, of course, the patients that 
need higher levels of care, emergency surgery, intensive care 
unit care, that type of thing. We don't have any substitute for 
the fixed facilities or the current hospitals and they have 
very little capacity.
    Mr. Honda. But that's an ongoing issue, though.
    Dr. Brown. That's correct, sir.
    Mr. Honda. You mentioned Y2K. Probably that activity was 
based upon Chairman Horn's work on Y2K, so you do get to see 
the fruit of your work, Congressman.
    The other question, I guess, relative to that is pre-
incident, and that is the identification of an incident. 
Someone talked about the difference between a nuclear attack 
where it is immediately self-evident versus a biological attack 
or cyber.
    In the area of healthcare I understand that there are some 
tests or experiments going on to monitor intakes of patients 
over a period of time to see the incidence of folks coming in 
with cold symptoms which would equate to probably gathering 
information quickly using that kind of information technology 
to determine whether there may be an attack with anthrax.
    I guess my concern is, have you thought about systems that 
could be put in place that would meet the needs of the kinds of 
attacks that could occur through, say, smallpox which is very 
infectious and anthrax, which is not infectious? It takes some 
time and it has a different epidemiology I guess you would call 
it. That's one end. The other end is the integration of 
services with, say, other first-responders, fire fighters, and 
the police department. Has there been work in that area?
    I guess my ultimate question really is if that is done, 
what is the cost of it? Can you share that with us so that we 
can put it in place because I think we need to percolate it 
from the bottom-up rather than from top-down and say, ``We are 
going to allocate $10 million for you all and this is how you 
are going to spend it.'' I hear that is another area of 
concern. Sure. There were a lot of areas covered in your 
question. It's kind of complex but let me break it down into 
two answers and then----
    Mr. Honda. That's why we have this hearing so that we can 
break it down and then put it back together again.
    Dr. Brown. And then if my answers don't fit your needs, let 
me know and I will certainly go into other areas.
    There are two types of systems that we have in place. The 
question boils down to what works and what doesn't. A good 
example is New York City has a rather extensive active 
surveillance system of their EMS system where they are 
monitoring things like ambulance calls, emergency department 
transports, and those type of things.
    This system was in place during the anthrax attacks on the 
East Coast and it did not pick-up the anthrax attacks. The 
anthrax attack was picked-up by an infectious disease physician 
who was consulted to the Florida case, the gentleman that was 
working at the media outlet in Florida.
    It is our belief that simply doing a surveillance of one 
thing or another may not be what we need to have an effective 
system. What we are pursuing is a sentinel events system so 
that we have direct notification of the local health 
authorities as well as the State and national authorities if a 
small number of cases appear. That would be a situation similar 
to the anthrax attacks that we have already had. It is my 
belief that the likelihood of a bio-terror attack is that there 
will be a large number of victims. We won't have trouble 
telling that there is something afoot. What we might have 
trouble doing is narrowing down among the various types of 
syndromes or pathogens, as several of my colleagues have 
mentioned, to figure out what it is and what is the best way to 
treat it and get that treatment out quickly.
    To that end, we have developed in San Francisco an 
emergency communication system for physicians as well as for 
hospitals and we tested this on September 11th as well, a way 
to notify all the community physicians of any specialty in any 
practice setting that there was a situation that was occurring 
that they needed to be reporting actively to us what was 
happening so they had the latest information on how to advise 
and treat their patients.
    In a large scale attack, we have a communication system. 
The way the surveillance system will pick that up we believe is 
through the emergency departments and the reporting systems 
that we have already in place for the diseases of concern in a 
bio-terrorist attack which, as I am sure you know, has 
recently--the reporting requirements have recently been 
expanded to include all those diseases including smallpox.
    Dr. Brown.
    I think in the case of a highly contagious disease such as 
smallpox the real problem will be a logistics problem of 
deploying all of the researchers to identify who is at risk and 
who needs a vaccination and getting the vaccinations out 
rapidly and then tracking the effectiveness of the vaccination 
and the further health needs of the public. We have developed 
these plans. We are in the process of operationalizing them. We 
need to drill them.
    The question about the funding, we recently presented to 
our local governing body, the Board of Supervisors, what we 
felt it would take to sustain the Metropolitan Medical Response 
System at a bare-bones minimum. We came up with $5 million in 
recurring annual costs and $3 million in a one-time cost.
    It's only for San Francisco. I imagine in other communities 
that are larger such as San Jose and other California 
communities, Los Angeles and San Diego, that would be a larger 
amount, but that was specifically for the MMRS, not for any 
issues of improving hospital capacity and other things that I 
have addressed.
    Mr. Trevino. Mr. Chairman, if I may, I would like to 
buttress the doctor's statements. Post September 11th the city 
and county of San Francisco did acquire two detection devices 
capable of picking up anthrax. Unfortunately, even though those 
devices are expensive and we consider them state-of-the-art, 
their effectiveness is only about 50 percent of the time. That 
means that we still have quite a few question marks during a 
response.
    Just to quantify exactly the kind of workload that we have 
been under since the September attacks, during the month of 
October, which was during the anthrax attacks on the East 
Coast, our hazardous materials team in the fire department went 
from an average of six calls per month, which is our normal 
day-to-day business, up to 220 for the month of October alone, 
so that gives you an indication of just what kind of a strain 
that puts on our resources here.
    Mr. Horn. I want to go back to Mr. Brown for a minute on 
the smallpox which was a good dialog. Do we have any use for 
the smallpox vaccines we had 30, 40, 50 years ago? Does that 
help us if you have some rogue country dumping smallpox.
    Dr. Brown. I will give a brief answer, yes. I will have to 
qualify my statement by saying my expertise is in emergency 
medicine and not in infectious disease. I am sure the Centers 
for Disease Control and other Federal resources would have a 
more specific answer for you.
    My understanding of the use of the smallpox vaccine is that 
it has been tested recently and found to contain its potency. 
In other words, it will still be effective in treating smallpox 
cases. I do know from my studies that it will be effective or 
useful for up to a week after the exposure.
    However, as Congressman Honda has pointed out, there are 
often latent periods during which time we are not aware of all 
of the people that have been affected by an attack so it will 
become very critical to correctly identify those who are at 
risk and get the treatment to them within a short period of 
time.
    Mr. Horn. We have, I believe, testimony that we have quite 
a few vaccines there. Ten years ago or 5 years ago it was a 
mess in terms of the warehousing. They didn't know what they 
were doing and they didn't get it out around the country. I 
just wonder, you might be in emergency medicine and all but 
what do you know about it from your standards on whether it is 
smallpox or anything else?
    Dr. Brown. From my perspective for treating a smallpox 
attack the crucial factor will be to setup quickly the 
emergency treatment centers and prophylactic treatment centers 
that we would need to treat a large number of people and to 
equip those centers with everything they need to provide the 
immunization and to collect the information from the patients, 
potentially draw blood, etc., that they would need to track the 
epidemic or the attack.
    I know from our planning that we are prepared to do that. 
We do need to have the drilling to actually put it in place and 
see the timing that it will take for it to occur.
    Then all of this, of course, is predicated upon our getting 
the vaccine from the national pharmaceutical stockpile rapidly 
so that we can utilize it to treat the patients.
    Mr. Honda. Just a quick comment. I guess the difference 
between anthrax and smallpox is that smallpox is infectious and 
contagious so the drill would probably have to be different. 
Well, the drill may be the same but the response may be 
different in terms of trying to isolate folks and create a 
concentric shell around the point of identification so that we 
can prevent a mass epidemic.
    Dr. Brown. That is an excellent point. Each of these agents 
that could be used in an attack have their own challenges, but 
in the case of small pox, it is not only the identification of 
the people at risk that might be difficult.
    It is also the fact that those people can then potentially 
spread the virus, although the most infectious cases of 
smallpox are people that have the full-flown syndrome. With 
this communication system that we can notify all of the 
physicians, all of the healthcare personnel in the community to 
be looking for the syndrome. Hopefully we will be able to 
identify those infectious--excuse me, contagious patients 
rapidly and put them in some type of protection on quarantine 
status.
    Mr. Honda. Mr. Chair, just to close then on my part, what 
you are saying is that we've got pieces of the jigsaw puzzle. 
We have some ideas where the missing pieces are. It's a matter 
of putting them together. The glue that we have to have is the 
revenue. That is No. 1. The flow of revenue is not perfect. 
That's why I ask if there are some cost estimates that can come 
from local up and then some suggestions on how that can be 
distributed once it is authorized and allocated.
    It seems to me there are some counties that are quite 
capable of being the direct recipients of funds where the State 
can be bypassed and the State can be utilized where counties 
may not have the full breathe of technical assistance or 
technical folks to be able to--or full breathe of services 
where they would need a State coordination where you could 
combine States together.
    That is one impression. What I hear you also saying is that 
needs for training and equipment is ongoing but there is 
initial cost such as you stated. But then there is also what 
you didn't mention is the cost of substitutes while people are 
in training. It seems to me an ongoing cost.
    What I am hearing also is the stovepipe effect of all our 
eight different agencies including the feds. There is nothing 
lateral to communicate between you so that you have a national 
system of communication of distribution of materials or meds 
and things like that. That would be help for us to hear from 
you and how you can put this together so that the plan can move 
forward and up. I was hoping for some sort of quick response.
    Mr. Horn. Dr. Winslow.
    Dr. Edwards-Winslow. I think that we had a good beginning 
with the Nunn-Lugar-Domenici program where six specific 
agencies were tasked to work directly with the cities.
    Through the Department of Health and Human Services the 
MMTF cities across the United States have a contract right now 
to develop sustainment cost estimates, and that's what Mr. 
Canton referenced earlier, that San Francisco has been working 
on the project and so has San Jose.
    Within just a few months there will be information from the 
original 27 cities who have had almost 5 years experience now 
in this field. That information, I think, could become a very 
useful paradigm because I doubt there will be a great deal of 
difference.
    I think also the cooperative spirit that we experienced in 
San Jose among those six Federal partners was a key 
contributing factor in our local success. I think that needs to 
be nurtured and encouraged at the Federal level through 
legislative support and funding so that the appropriate Federal 
agencies can each contribute the expertise that they have but 
in a collegial manner.
    The single point source for funding is really critical 
because, as my colleagues have pointed out, grant writing is 
time consuming and expensive for the local government. Then the 
reporting requirements that go along with the grants and the 
contracts often cost a significant percentage of the money that 
is received and that needs to stop.
    We need to create sensible Web-based reporting that can be 
done electronically that minimizes the use of staff time, but 
yet gives the Federal Government the appropriate methods for 
monitoring the fact that we should be extremely responsible in 
the way that we handle this scarce funding.
    Mr. Horn. Thank you. We are going to have on panel two the 
question to answer that I'm going to now give to you because 
some of you are on national committees of your relevant 
associations. I would be just curious if this discussion would 
be there, especially on our massive lack of health facilities 
given Medicare and all the rest.
    I wonder has anybody talked about the Veterans 
Administration Hospitals or the military hospitals and are they 
in on this? Do we know has somebody done an inventory which if 
something happened in Texas or in California would there be 
beds? Would we have to draw on from the VA or the military?
    Dr. Brown. I can give you a partial answer to the question. 
The VA is an integral part of the National Disaster Medical 
System and this is a system that will be able to evacuate 
patients to centers of care where there is capacity to treat 
them from a zone that is heavily impacted such as a city that 
is under attack.
    We have been working with our local VA, the Fort Miley 
facility, and working with them in terms of developing a 
disaster hospital capability. What looks most promising 
currently is the ability to rapidly convert beds that they have 
in a skilled nursing facility on their campus to disaster acute 
care beds.
    Now, admittedly the entire facility of that skilled nursing 
facility only has 100 beds but to have 100 beds available 
within a few hours makes a tremendous difference. And then to 
have the national disaster medical system bring in other assets 
such as the disaster medical assistance teams, volunteer teams 
of medical personnel.
    I happen to serve on California 6, the Bay Area disaster 
medical assistance team. To have those teams come in within 6 
to 12 hours to setup additional facilities and additional care 
will be invaluable in any disaster scenario.
    Mr. Horn. That's very helpful.
    Mr. Canton.
    Mr. Canton. I would just like to point out that the 
response mechanism in the United States is actually fairly 
robust and works fairly well. My previous job was with the 
Federal Emergency Management Agency and I think in the time I 
was there I saw the Federal Response Plan go from something 
that was just a concept to something that really does work in 
the field.
    Our entire emergency response in any operation is based on 
support to the lowest level. Our emergency operation center 
supports the field people that are working on a problem. The 
State Office of Emergency Services then supports my operation. 
Then the Federal Government overlays that.
    I think where the problem comes in is that many of the 
agencies that are involved in these different plans don't 
always work together. They don't spend time doing exercises, as 
Dr. Brown mentioned. In many cases they are developing plans in 
a vacuum and very independently from some of the other agencies 
that are involved.
    I think the real issue becomes what do we use as the 
linchpin for all these different plans that are out there. I 
think that's where you have to eventually come back to the 
emergency management community.
    I don't think we've been as good a player as we could have 
been. I don't think at some of the State levels that the 
offices are sufficiently funded to provide the oversight they 
need. I think in many cases it really depends on which 
executive arm of the government is willing to give the 
authority to offices of emergency services to coordinate that 
work.
    We are not first responders but our job is to get the first 
responders to come together and look beyond just their 
individual plans and to make sure the plans mesh together. I 
think ultimately we end up being the linchpin and I think 
ultimately at the Federal level that brings you back to the 
Federal Emergency Management Agency.
    Mr. Horn. In your testimony you stated that while reporting 
requirements for FEMA grants for the emergency management 
preparedness have been simplified, the amount of grants have 
decreased, however. With all the additional Federal money that 
is being made available, do you anticipate that trend will 
change next year for San Francisco?
    Mr. Canton. We are certainly hoping so. We are certainly 
heartened by all the money, as Chief Trevino, we see moving 
through Congress. We are also a little disheartened that this 
far from the event of September 11th we still haven't seen any 
Federal funds down here. We are still working out of our own 
departmental budgets. We are reassigning priorities. In many 
cases we are cutting programs so that we can put additional 
money into these things. Very little money has reached us.
    I would like to hold up that particular program from FEMA 
as sort of an example of how things can work well. When that 
program first started many years ago, it was designed to 
stimulate the formation of local offices of emergency services. 
It was primarily a program to fund personnel.
    Over the years that became very restrictive. There were a 
number of other things that were layered over that. The 
reporting requirements got very onerous. Then several years ago 
FEMA had a revision of the program where they said, ``Look, 
local governments know how to make best use of their funds.''
    It became, in essence, a block grant. We have a very simple 
program where at the beginning of the fiscal year we provide a 
work plan. We check in at mid-year and at the end of the year 
we do a final report. In turn the amount of money that we get 
we are free to use as we designate in our work plan.
    The problem comes in--it is two fold. One is that the 
Federal Government has reduced the amount of funding available 
in that program. The second was to a certain extent a self-
inflicted wound where we in the State of California redesigned 
our funding formula so that less money went to some 
jurisdictions and more went to other jurisdictions. I think it 
is a combination of things but we are certainly hoping that 
more money will be put in this program in the next fiscal year.
    Mr. Horn. There is a lot more things we could ask but let 
me ask you one about the national stockpile we have been 
talking about on medications. How would they be distributed 
throughout the San Francisco Bay region? We do have a CDC 
witness in the next panel but has there been any planning on 
how that would happen?
    Dr. Brown. Yes, sir. There has been. I sit on the advisory 
committee for the EMS authority and the Office of Emergency 
Services on the national pharmaceutical stockpile. Very briefly 
stated what would happen is the material would arrive at a 
distribution point somewhere near the communities involved. It 
would have to be requested by the Governor through a mechanism 
of declaration of emergency.
    It would also be potentially in competition with other 
requests by other communities in other States. If we had an 
attack of a contagious agent such as smallpox, it is quite 
conceivable that many, many communities would be affected and 
so decisions would have to be made to triage the material.
    Once the material arrived at the site, it would be broken 
down by assistance of State assets, and potentially Federal 
assets, the National Guard and so forth, and then distributed 
to the communities.
    We have in San Francisco several distributionsites that we 
have designated. Again, we have in our plan and in our training 
of our personnel indicated how this material would be accessed 
quickly and transitioned to put into patients' hands.
    Dr. Brown.
    Again, the limitation is that we have not drilled that with 
our Federal and State partners and we need to be doing that 
rapidly.
    Mr. Horn. Chief Sanders, I think you wanted to comment on 
some of these questions.
    Mr. Sanders. Thank you very much, Congressman. As I have 
listened to my colleagues and to your questions, a major 
incidence has come up of deterrence. Thirty-eight years of law 
enforcement has taught me that even in our traditional law 
enforcement prevention of crime is extremely important.
    Here in San Francisco we have taken that into consideration 
in this circumstance in developing a personal emergency plan, 
standardize plan on how to report emergencies, train the 
citizens on what to do and have themselves ready to respond for 
a period of time until the official forces can get to them.
    One of the other areas we look at in deterrence is regional 
intelligence cross-training. I know that in law enforcement if 
there is a bank robber on the East Bay, I know that when he or 
she runs out of the bank there, they will come over here. We 
need to share our law enforcement information both horizontally 
and vertically.
    I do know of some bills in Congress to get that done so we 
can break down some of the old barriers so that we could share 
information. To join Mr. Cochran, there is a piece of 
technology I recently have reviewed called a threat detector 
where we actually look for people.
    These bombs and devices of destruction are placed there by 
people. Certainly we know from the intelligence coming since 
September 11th that there are cells of these anti--actually, 
they are warriors. They think of themselves as warriors in a 
world war against whomever they regard as an enemy.
    We need to track these individuals just as we track other 
criminals around our country and around the world. There is 
technology, again, available for that. We are able to check 
people at the airports. I am going to have to deploy troops at 
my own police offices at the San Francisco International 
Airport to replace the National Guard.
    Also, I would like to have those officers rather than just 
stand there and watch and respond to just physical incidences 
in their area, provide them with information that can be given 
to them by technology. This threat detector can check every 
wanted person in nanoseconds.
    For example, all 19--as I am informed, all 19 of the 
highjackers in the September 11th event were on watch lists. 
That information never got to local law enforcement. We would 
like to work with all of the governments, State, local, and 
Federal to work out a system where we can share that 
information and be able to respond to it. You are absolutely 
correct.
    I mentioned the letter I wrote to Chairman Sensenbrenner of 
the Judiciary and the bill number of mine is H.R. 3483, the 
Intergovernmental Law Enforcement Information Sharing Act of 
2001. I would hope if enough chiefs of police and fire and all 
the rest would support that, we could deal with it.
    The FBI has been very good without legal part. This should 
have been in the earlier and Mr. Sensenbrenner realized that. 
He's going to move that as fast as he can.
    Mr. Sanders. Thank you, sir. That would be very, very 
helpful, again, in law enforcement helping us to do the new job 
that we've been assigned to in homeland security.
    Mr. Horn. Yes.
    Mr. Canton. Chief Sanders touched on one area that I think 
is very important that we sometimes overlook, and that is what 
do we tell the public? What do we want the public to do?
    One of the things we felt after September 11th here in San 
Francisco was that we really didn't have a good message 
initially to answer when people asked us, ``What should we be 
doing about this?'' A lot of our effort in the first week was 
to develop just such a message.
    We have national programs for crime prevention. We have 
national programs for a variety of different things, emergency 
management, but we really aren't seeing yet a national program 
that answers that question for people ``what should they be 
doing?''
    Again, I think there are models out there if you look at 
how Great Britain deals with terrorism, with how Israel does. 
There are posters. There are flyers. There are Web sites. There 
are things that tell people how they can empower themselves. I 
think that should be part of any program, too. You have to 
remember the public needs to be a partner in this.
    Certainly by providing intelligence information to the 
police, by being alert to the signs of a potential terrorist 
attack, they can, in fact, play a role. I think we need to 
stress that we are all in this together and we need their help 
as much as we need the help of the emergency services.
    Mr. Horn. Well said.
    Mr. Cochran, before we close this out, you mentioned on the 
x-ray machine that it can, in fact, see or think there is a 
human lift under the rubble. Are these devices available to 
local police and fire departments and, if so, at what cost?
    Mr. Cochran. There were two things. The x-rays were looking 
at containers and the radar devices were looking through 
rubble. The radar devices are just starting to be made 
available. They are very inexpensive. I don't know what the 
exact cost would be but no more than a few hundred dollars at 
most. They can be made available to first responders over the 
course of the next several months or year.
    Mr. Horn. That would really be helpful to a lot of people 
that felt that maybe it couldn't be done.
    Mr. Cochran. There are always issues that we've got to work 
our way through and sometimes you get blocked but then there 
are usually work-arounds and you have to find those. Thank you.
    Mr. Horn. Well, thank you. We'll have additional questions. 
If you wouldn't mind, there are a few key things from both the 
majority and the minority. We will put them in the record at 
this point. We would like to have your ideas on it.
    We have taken a lot of your time and we thank you for 
coming in here. We are now going to start with panel two and we 
dismiss panel one. If you are staying around and you see 
something crazy that we're dealing with in panel two, you are 
certainly welcome to speak-up as you are going to the door.
    OK. Panel two. Dr. Burton, Mr. Riordan, Ms. Cherry, Ms. 
Dalton, Mr. Mefford, Dr. Bice, and our person that is following 
us across America, Mr. Ron Castleman. We are glad to see him 
always.

     STATEMENTS OF DR. RICHARD BURTON, ASSOCIATE DIRECTOR, 
    CALIFORNIA DEPARTMENT OF HEALTH SERVICES; RAY RIORDAN, 
  EMERGENCY PREPAREDNESS OFFICER, EAST BAY MUNICIPAL UTILITY 
  DISTRICT; JANET CHERRY, ASSOCIATE, THE CADMUS GROUP, INC.; 
   PATRICIA DALTON, DIRECTOR, STRATEGIC ISSUES, U.S. GENERAL 
ACCOUNTING OFFICE; LARRY A. MEFFORD, ASSOCIATE SPECIAL AGENT IN 
CHARGE, SAN FRANCISCO FIELD OFFICE; DR. STEVEN BICE, DIRECTOR, 
 NATIONAL PHARMACEUTICAL STOCKPILE, CENTER FOR DISEASE CONTROL 
 AND PREVENTION; AND RON CASTLEMAN, REGIONAL DIRECTOR, REGION 
            VI, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Horn. You've probably heard how we go about this. That 
is, we do swear in all witnesses so if you will stand and raise 
your right hand and affirm the oath.
    [Witnesses sworn.]
    Mr. Horn. Thank you. It will be seven witnesses and the 
clerk will note that. We will start this down the line as we 
have it in panel two's agenda and that will be with Dr. Richard 
Burton, the Associate Director of the California Department of 
Health Services.
    Dr. Burton. Thank you, Chairman. I appreciate the 
opportunity to come and share some thoughts this morning from 
the California Department of Health Services. In my previous 
experience, I've been working with the California Department of 
Health Services for the last month and a half. About 10 years 
before that I was a local health officer here in California and 
before that about 10 year's experience as a flight surgeon with 
Marine Corps.
    Since the aftermath of September 11th we have refocused a 
lot of our energies in California in our partnership with State 
and local public health officials, the public health officials 
were tasked with the primary responsibility of coordinating 
public health responses in the State. We do that in conjunction 
with our partners in law enforcement, OES fire, and George 
Benson, the special adviser on State preparedness here for the 
Governor.
    At the local level they are also coordinating with the 
first-responders that were represented on the first panel and 
in conjunction with their multiple private sector of medical 
care providers.
    I think what we would like to highlight in today's 
testimony is the appreciation we have for the funding that has 
been made available from the Federal level for public health 
preparedness and for hospital preparedness.
    That funding has been in just the last month or so from the 
Center for Disease Control and HRSA has come to California and 
we are currently in the process of preparing the applications 
that were required by Federal oversight in order to receive the 
full extent of those funds and make them available to enhance 
our preparedness.
    The issues that have come up so far as preparedness from 
the first panel relating to planning and readiness assessment, 
surveillance, or public health, intelligence gathering, and 
epidemiology capacity or laboratory capacity that we need to 
have in order to assess biologic agents, and also the potential 
threat they have to a community dealing with risk communication 
and information technology, and also in dealing with education 
and training both within the public health field and with our 
partners that are first-responders in law enforcement fire, 
OES, EMS.
    All of those issues are parts of the planning process and 
application process that the Center for Disease Control and 
HRSA have incorporated into their funding allocations.
    In order for us to be successful at addressing all of those 
issues and recognizing our partnership with the local 
jurisdictions, there are 61 independent public health 
jurisdictions in the State of California.
    The Department of Health Services has developed focused 
area work groups with representation from local public health 
jurisdictions and expertise from academia along with the 
expertise within the State Health Department. If flushed out, 
the assessments and needs and where we can best enhance our 
ability to serve the residents of California and that has 
informed the application that is currently being put together. 
I guess in closing, on these comments I would be happy to 
answer any questions. We have heard a number of presentations 
this morning that have referenced new and emerging technologies 
that can be of great benefit to us and our ability to detect a 
threat and also to manage it once an occurrence has taken 
place. Those technologies are very promising.
    I know what I've heard from my local colleagues in public 
health and the State colleagues in public health that while we 
make use of these emerging technologies, we need to assure that 
we have the human intelligence and professional capability to 
manage the technologies, interpret the technologies, and make 
the policy recommendations that will best serve the 
constituents and the residents in California. Thank you, sir.
    [The prepared statement of Dr. Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.036
    
    [GRAPHIC] [TIFF OMITTED] T5125.037
    
    [GRAPHIC] [TIFF OMITTED] T5125.038
    
    [GRAPHIC] [TIFF OMITTED] T5125.039
    
    [GRAPHIC] [TIFF OMITTED] T5125.040
    
    [GRAPHIC] [TIFF OMITTED] T5125.041
    
    Mr. Horn. Thank you.
    Mr. Riordan.
    Mr. Riordan. Thank you, Mr. Chairman, Representative Honda 
for inviting us. My name is Ray Riordan, the Emergency 
Preparedness Officer for East Bay Municipal Utility District. I 
have been an emergency manager for city and county agencies for 
the last 16 years, the last 9 years being with East Bay 
Municipal Utility District.
    East Bay MUD is a large water and waste water utility in 
the State of California. We serve 1.3 million water customers 
and 685,000 wastewater customers. While I'm here representing 
the District, I am also making commentary with many of the 
other water utilities we coordinate with in the Bay Area and 
the smaller water utilities in the State of California.
    Water systems have several key critical priorities that 
they must pay attention to as a water manager. First and 
foremost is public health right in line with balancing fire 
fighting. The fire fighters want the wet stuff to put on that 
red stuff as a way of managing the public safety.
    We also pay strong attention to our multi-hazard 
responsibilities here in the State of California with the many 
seismic events, as well as the technological or other natural 
events that we have to face.
    In the State of California alone, again, because we are a 
large water utility, I don't want to sway one direction or the 
other. There are over 10,000 water systems in the State of 
California licensed with the State Department of Health. There 
are many water utilities in the State of California that are 
both public and private and may serve to store water, provide 
water supply, transport water, treat water, or provide 
distribution.
    We at East Bay MUD are large enough to be able to work with 
large agencies. Since 1952 we have been part of California 
Utilities Emergency Association. Since 1998 we have been part 
of the FBI's National Structure Protection Commission.
    Large utilities like ourselves are able to respond 
effectively to large events such as the terrorism events. We 
took immediate actions as did many other water utilities. For 
the first time in our history we limited access to our water 
supply reservoirs from recreators. We had to close down our 
reservoirs for the first time in our history because 
conventional wisdom indicated that there would be a large 
concern for the water supply or the structural integrity of the 
dams if something were placed outside those dams.
    Immediately after the event we began response by looking at 
our systems and even conducting a preliminary vulnerability 
assessment reflecting on what is our real risk versus what is 
our perceived risk within the media and the public.
    We instituted new corporate procedures including how we 
provide public information. One of the key issues that we have 
as a water industry is just how much information do we have to 
have or provide easily to the public in the Freedom of 
Information Act. This is a significant issue for us.
    We increased our security procedures and our vendor systems 
to the point of more than doubling the cost of operational 
contracts as well as looking at the future cost of capital 
improvement.
    Because of the lack of coordination or information 
immediately available on the terrorism threat we began to work 
closely with six other public water utilities within the Bay 
Area, the San Francisco Bay Area representing over 6 million 
water customers.
    We formed an ad hoc committee called the Bay Area Security 
Information Collaborative [BASIC], as a way of sharing 
information on the threat, the risk, providing educational 
information and coordination. We did this in conjunction with 
information that we did receive from the FBI and the EPA who 
have provided invaluable support.
    To this point I mentioned our security contracts. We have 
increased our security contracts from $1.4 million to over $2.3 
million, almost doubling our budget.
    We see that EPA funds are available for $125,000 at this 
time are only for the large utilities and we need to pay 
attention to the smaller utilities as well. It is estimated 
that we will have $20 million in improvements necessary for 
capital improvements. This is waging a significant impact on 
our capital resources.
    We need Federal support on the science of detection. Right 
now we rely on looking at health information from hospitals, 
how many people have become ill at hospitals? We respond to a 
need by testing our water system on a regular basis. We need to 
have a better understanding of what it is we are testing for.
    We need support on the science of detection.
    We also need support and Federal resources on response 
coordination. It is very difficult to get a single source of 
information for the water systems as to how to respond. We also 
have to pay attention to when a water system does become a 
target for a terrorist event, that it becomes a crime scene, 
and we have to understand better how to respond to that 
situation.
    In closing, a key issue that we have paid attention to and 
have discovered is that you don't have to actually contaminate 
a water system. You just need to affect public confidence in 
the water system, convince the media or the public the water 
system has been contaminated. That would be enough of a crisis 
for water systems to respond to.
    It is a large psychological effect. Last our concern is on 
confidentiality. If we do the security vulnerability 
assessments, how much of that information do we have to publish 
because then we are putting out the information for the 
potential terrorists to use back against us as a water system.
    We in California have done a lot of work on natural and 
technological preparedness and we would like to see some 
additional funding for the security event without additional 
regulations that we already see in our emergency preparedness 
programs we currently hold. Thank you very much for the time.
    [The prepared statement of Mr. Riordan follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.042
    
    [GRAPHIC] [TIFF OMITTED] T5125.043
    
    [GRAPHIC] [TIFF OMITTED] T5125.044
    
    [GRAPHIC] [TIFF OMITTED] T5125.045
    
    [GRAPHIC] [TIFF OMITTED] T5125.046
    
    [GRAPHIC] [TIFF OMITTED] T5125.047
    
    [GRAPHIC] [TIFF OMITTED] T5125.048
    
    Mr. Horn. Well, thank you.
    We now go to Janet Cherry, Associate of The Cadmus Group. 
We put your very fine--we will put it in again, but we got it 
when we were in Albuquerque so your record is in there. Go 
ahead because we didn't have you there. We just had the paper.
    Ms. Cherry. Mr. Chairman and Congressman Honda, thank you 
for the opportunity to testify today. My name is Janet Cherry 
and I am a registered professional engineer for The Cadmus 
Group, Inc. The following testimony is intended to address the 
need for examining the vulnerability of public water systems, 
particularly small water systems, to acts of terrorism.
    Money has already been appropriated for the large water 
systems to perform vulnerability assessment, but small water 
systems have been neglected.
    Large water systems are prepared technically, financially, 
and managerially to address security issues in small water 
systems. Large water systems possess the necessary 
professionals to identify security issues and the funds to 
implement the appropriate measures to maintain security.
    Small systems often lack both the financial means and 
personnel to identify and reconcile security issues. Small 
water system treatment plants are very vulnerable since some of 
the treatments plants do not have personnel onsite 24-hours a 
day, 7 days a week making vandalism or other acts of 
destruction easy to perform when staff are not present.
    Small water systems are often located in rural or remote 
areas again making these systems easier targets than the 
systems located in metropolitan areas. To provide an idea of 
how many small water systems exist, there are approximately 426 
water systems that serve fewer than 10,000 people in the San 
Francisco area alone.
    Water systems use the multiple barrier approach to prevent 
contamination or loss of service. This approach includes 
selecting the highest quality and least vulnerable source 
water, protecting the source, installing the appropriate 
treatment, and providing water through properly designed and 
maintain infrastructure.
    Even with this multiple barrier approach being practiced by 
water systems, unintentional contamination still occurs such as 
water-borne disease outbreaks. When water-borne disease 
outbreaks occur, there is a time lag between the time of 
exposure and when an outbreak is recognized by the public 
health community.
    For instance, on September 3, 1999, the New York Department 
of Health received reports of at least 10 children hospitalized 
with bloody diarrhea or E. Coli infection in counties near 
Albany, New York. E. Coli is a pathogen that naturally occurs 
in the environment and is harmful to humans if ingested.
    All children had attended the Washington County Fair near 
Albany, NY held between August 23rd and August 29th. In total 
65 people were hospitalized, 11 children experienced kidney 
failure, and 2 people died. This example illustrates the 
typical chain of events for an E. Coli outbreak. Now, E. Coli 
is regularly tested by approved laboratory methods and the 
symptoms are promptly recognized by the medical community. It 
was still up to 11 days before the outbreak was known by public 
health officials.
    If small water systems were to be intentionally 
contaminated by unknown pathogens or chemicals, the strain on 
the public health and medical community would be immense. As we 
start to address the vulnerability and resulting security 
measures for small water systems, we must not treat it as a new 
or complex concept. Conversely, security should be treated as 
an extension of the system's public health plan to deliver safe 
drinking water reliably and consistently.
    State public health departments have developed a sanitary 
survey process to assist water systems in delivering safety 
drinking water reliably and consistently. This process assess 
the adequacy of a water system's multiple barriers to prevent 
contamination or loss of service.
    A sanitary survey consist of an onsite visit to evaluate 
all areas of the water system. Its primary concern is to 
identify areas where inadvertent contamination or service 
interruption could occur, but it also includes an element of 
security. Sanitary surveys have typically focused on vandalism 
and theft in the past, but they could be modified easily to 
address any risk deemed relevant including terrorism. The key 
to successfully addressing vulnerability of small water systems 
is to buildupon an existing process, the sanitary survey 
process familiar to small water systems and State and Federal 
officials.
    The sanitary survey is an established process and all 
federally regulated public water systems are required to have a 
sanitary survey conducted every 3 to 5 years.
    Also, it is important that the vulnerability and security 
of small water systems receive attention as Federal lending 
agencies such as the EPA Drinking Water State Revolving Fund 
and the Department of Agriculture Rural Utility Service 
continue to invest in water system upgrades and improvement and 
expansions. It is only logical that these investments be 
properly protected. Thank you.
    [The prepared statement of Ms. Cherry follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.049
    
    [GRAPHIC] [TIFF OMITTED] T5125.050
    
    [GRAPHIC] [TIFF OMITTED] T5125.051
    
    [GRAPHIC] [TIFF OMITTED] T5125.052
    
    Mr. Horn. Thank you.
    We are going to rearrange the schedule a little here 
because I am calling on Ms. Dalton of the GAO at the end and I 
want to move you to the end. Then you can do the statement and 
we will see what is missing. I begin with Larry A. Mefford, the 
Associate Special Agent in Charge of the FBI, San Francisco 
Field Office.
    Mr. Mefford. Thank you, Mr. Chairman, Congressman Honda. 
Thank you for the opportunity to talk about this very important 
topic today.
    As you know, the FBI is undergoing a significant shift in 
how we approach counterterrorism and our responsibilities in 
that arena. Clearly we are focused on attempting to improve our 
ability to collect relevant intelligence data under the 
constitutional parameters that we work under to interpret that 
data and disseminate it to the agencies and to the general 
public that have a need to know, to conduct joint training 
opportunities and efforts with these agencies, and to conduct 
joint investigative activities.
    In the Bay Area the methods that we are using to employ 
this strategy is basically two-fold. In 1997 we formed the Bay 
Area Joint Terrorism Task Force, which since September 11th has 
expanded to include a total of 25 law enforcement agencies; and 
today consist of the largest law enforcement agencies in this 
region, consisting of about 65 investigators that are focused 
fulltime on investigating and preventing acts of terrorism in 
this region.
    Concurrently at the same time working with California OES 
we developed the Bay Area Terrorism Working Group, which is a 
group of consequence management and disaster agencies that are 
focusing on the post-incident response capabilities of all the 
agencies. In the area of intelligence development, we are 
attempting to develop improved methods of communication with 
the various law enforcement and disaster agencies, and the 
general public throughout this region. One of the methods that 
we have employed is the development of a Web page which is 
code-word accessed for all law enforcement agencies in this 
region.
    This is maintained by the Bay Area Joint Terrorism Task 
Force; and on this Web page we place relevant intelligence 
data, background information, and other intelligence 
information that they would need to do their jobs. We also have 
a corresponding Web page that we operate in conjunction with 
the Bay Area Terrorism Working Group so that the consequence 
management and disaster agencies can also have access to some 
of this data.
    We are in the process of developing an interagency training 
initiative so that we can go to various police departments and 
disaster agencies and provide on-scene training by members of 
the Joint Terrorism Task Force. Not only FBI personnel, but 
outside agency personnel also. We can explain and hopefully 
educate the agencies regarding what factors to look for.
    For example, we have studied the 19 terrorists responsible 
for the acts on September 11th. We've looked at their methods 
of operation very closely, and we would like to relay that 
information because we think it would be helpful in preventing 
potential future acts.
    Internally we have also taken steps in the FBI in San 
Francisco to develop an in-house capability. We have a 30- 
agent evidence response team that has received specialized 
training in the area of terrorism, crime scenes, and responding 
to acts of chemical, biological, or radioactive terrorism.
    As part of this team we have an eight-agent hazardous 
material response team that has actually developed the in-house 
capability to operate and to collect evidence in the 
contaminated crime scene. Working with other disaster agencies 
in the Bay Area we have developed the capability to respond to 
the scenes and to complete the mission of the FBI should such 
an act occur.
    Finally, our special weapons and tactics team, which 
consist of 46 special agents in this region, they have all been 
trained to operate in a contaminated environment. We see this 
as an augmentation to local disaster agencies and obviously 
gives us the ability to perform at another level that 
historically we have not yet had to perform, fortunately.
    Finally, we have a weapons of mass destruction coordinator, 
as every FBI Field Office does; and these individuals are 
assigned specifically to enhance our capabilities and our 
ability to interface with other disaster agencies in the 
region. In the area of intelligence we are working closely with 
the State of California. Their anti-terrorism information 
center, which was formed in San Francisco, we hope to create an 
intelligence terrorism center as part of our JTTF in the Bay 
Area, interfacing with the State system so that we can get 
relevant terrorism threat data to the first responders of any 
incident.
    Clearly, in conclusion, our mission has changed from one of 
prosecution to one of prevention and we are devoting 
considerable resources to try to improve our capabilities in 
that area. Thank you very much.
    [The prepared statement of Mr. Mefford follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.053
    
    [GRAPHIC] [TIFF OMITTED] T5125.054
    
    [GRAPHIC] [TIFF OMITTED] T5125.055
    
    [GRAPHIC] [TIFF OMITTED] T5125.056
    
    [GRAPHIC] [TIFF OMITTED] T5125.057
    
    [GRAPHIC] [TIFF OMITTED] T5125.058
    
    [GRAPHIC] [TIFF OMITTED] T5125.059
    
    [GRAPHIC] [TIFF OMITTED] T5125.060
    
    [GRAPHIC] [TIFF OMITTED] T5125.061
    
    Mr. Horn. Thank you. It is very helpful.
    We now will go to Dr. Steven Bice, the Director of the 
National Pharmaceutical Stockpile, Center for Disease Control 
and Prevention. We are delighted to have you here.
    Dr. Bice. Thank you, sir. Good morning, Mr. Chairman, Mr. 
Honda. I appreciate you inviting me here. Speaking for all the 
men and woman of my agency, thank you for sponsoring these 
kinds of field hearings and raising important issues and for 
allowing us to take part.
    Like all other Americans we at CDC were horrified and 
saddened by the events which took place in New York, 
Washington, and Pennsylvania last fall. But as the Nation's 
Disease Control and Prevention Agency we were also immediately 
galvanized to action to provide assistance to our partners in 
the affected cities and States.
    In my oral comments, I'll provide a brief overview of CDC's 
activities related to September 11th and the subsequent anthrax 
attacks and how we are working to better prepare our Nation's 
States and cities for threat of public health emergencies 
including, of course, terrorism.
    The terrorist events of September 11th and later events 
related to anthrax have been defining moments for all of us and 
they have greatly sharpened the Nation's focus on public 
health. The events created the greatest public health challenge 
in CDC's history requiring an unprecedented level of response. 
CDC has deployed 588 employees since September 11th in response 
to the World Trade Center event and the anthrax investigation.
    Within 10 minutes of the second plane crashing into the 
World Trade Center we initiated an emergency operation center 
that functioned 24-hours a day, 7 days a week. While all 
commercial aircraft were grounded after the attack, CDC's 
National Pharmaceutical Stockpile Program was able to arrange 
transportation of its emergency response personnel to New York.
    For the first time ever CDC deployed the National 
Pharmaceutical Stockpile sending push packages of medical 
material to New York City and to Washington, DC. In response to 
the cases of anthrax exposure, our program was also used to 
deliver antibiotics for post-exposure prophylactics to 
employees in affected buildings, postal workers, mail-handlers, 
and postal patrons.
    Within 4 hours of the attack on the World Trade Center CDC 
health alert network was activated and began transmitting 
emergency messages to the top 250 health officials throughout 
the Nation. Over the next 16 weeks 67 health alerts, 
advisories, and updates were transmitted ultimately reaching an 
estimated 1 million frontline public and private physicians, 
nurses, laboratorian, and State and local health officials.
    The Epidemic Information Exchange [Epi-X]--public health's 
established, secure communications network--immediately 
developed a secure conference site for State epidemiologists 
and local CDC investigative teams for posting information on 
surveillance and response activities, including HHS reports, 
CDC health advisory information and health alerts, and reports 
from State health departments.
    The Morbidity and Mortality Weekly Report [MMWR], CDC's 
scientific publication, published reports on an urgent basis 
and delivered these reports electronically to over 500,000 
healthcare providers.
    During the height of the Nation's anthrax crisis in 
October, CDC experienced larger than normal traffic on its Web 
site and conducted daily press and telephone briefings, fielded 
thousands of press inquiries, and was featured in television 
interviews reaching hundreds of millions of viewers.
    At the peak of the anthrax response, CDC had more than 200 
personnel in the field assisting State and local partners and 
hundreds more personnel at headquarters assisting in the 
effort.
    Over all there was a total of 22 cases of anthrax with 11 
being cutaneous or skin form of the disease and 11 being 
inhalation.
    While we deeply regret each illness that occurred, we are 
very encouraged by the fact that none of the approximately 
10,000 persons who were given antibiotic prophylactics 
developed anthrax despite significant exposure to anthrax 
spores. Last fall's events revealed serious gaps in our 
Nation's public health defenses against biological, chemical, 
and radiological threats. These gaps include inadequate 
epidemiologic and laboratory search capacity, an insufficient 
knowledge base concerning sampling and remediation, and lack of 
information concerning infectious dose and host susceptibility.
    In addition, the public health system needs to improve its 
ability to convey information and to provide treatment and 
preventive measures to large numbers of persons and a way of 
assuring compliance with treatment regimes.
    This will require extensive preparedness planning, 
cooperation across agencies and between Federal, State, and 
local counterparts. It will also require that we work closely 
with partners in the emergency response community, law 
enforcement, clinical medicine, academia, and private industry.
    CDC will continue to support State and local government 
officials in preparing and responding to public health 
emergencies including terrorist events by providing assistance 
and technical guidance in conducting problem assessment, 
evacuation, and relocation decisions, proper treatment of 
victims, epidemiological surveillance, disease control 
measures, and studies of exposed populations.
    At the request of the State, CDC will deploy trained and 
rapid response teams who can assist in protecting the public's 
health in the event of a public health emergency. CDC response 
teams have experienced an expertise in medical management, 
disease prevention strategies, assessing needs, first responder 
procedures, site safety, environmental sampling strategies, 
sampling equipment, and disease and injury surveillance.
    All States and localities must be prepared to address these 
threats and mount an effective response. In late January HHS 
announced a total of $1.1 billion in funding would be provided 
to States to assist them in their bio-terrorism preparedness 
effort.
    On January 31st Secretary Thompson notified each Governor 
of the amount his or her State would receive to allow them to 
initiate and expand planning and building the necessary public 
health infrastructure.
    In California the State received $60.8 million in funding 
from the Center for Disease Control.
    In conclusion, CDC is committed to working with other 
Federal agencies and partners, State and local health 
departments, and the healthcare and first-responder communities 
to ensure the health and medical care of our citizens. Although 
we have made substantial progress in enhancing the Nation's 
capability to prepare for and respond to a terrorist episode, 
the events of last fall demonstrate that we must accelerate the 
pace of our efforts to assure an adequate response capacity. A 
strong and flexible public health system is the best defense 
against any disease outbreak or public health emergency. Thank 
you.
    [The prepared statement of Dr. Bice follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.062
    
    [GRAPHIC] [TIFF OMITTED] T5125.063
    
    [GRAPHIC] [TIFF OMITTED] T5125.064
    
    [GRAPHIC] [TIFF OMITTED] T5125.065
    
    [GRAPHIC] [TIFF OMITTED] T5125.066
    
    [GRAPHIC] [TIFF OMITTED] T5125.067
    
    [GRAPHIC] [TIFF OMITTED] T5125.068
    
    [GRAPHIC] [TIFF OMITTED] T5125.069
    
    Mr. Horn. Thank you.
    Mr. Castleman, Ron Castleman, has been at two or three 
hearings with us. That's Regional Director in Region VI, 
Dallas, of the Federal Emergency Management Agency, FEMA. They 
do a great job. We thank you.
    Mr. Castleman. Thank you. Good morning, Mr. Chairman and 
Congressman Honda. I am Ron Castleman, Regional Director, 
Region VI, of the Federal Emergency Management Agency. It is a 
pleasure to be here today to discuss how FEMA is assisting 
State and local governments to prepare for potential terrorist 
attacks.
    FEMA's mission is to lead the Nation in preparing for, 
responding to, and recovering from disasters. Our success 
requires close coordination with local, tribal, State, and 
Federal agencies as well as volunteer organizations.
    The Federal Response Plan outlines the process by which 
Federal departments and agencies respond as a cohesive team to 
all types of disasters in support of State, tribal, and local 
governments.
    This plan has been tested on numerous occasions since its 
inception in 1992 and the Federal Response Plan again worked 
well in response to the terrorist events of September 11, 2001.
    FEMA's preparedness provides financial and technical 
planning, training and exercise support to State and local and 
tribal governments. These programs are designed to strengthen 
capabilities to protect public health, safety, and property 
both before and after disasters occur.
    On May 8, 2001 the President tasked FEMA Director Joe 
Allbaugh with creating the Office of National Preparedness 
[ONP], within FEMA. The ONP mission is to provide leadership in 
the coordination and facilitation of all Federal efforts to 
assist State and local first-responders and emergency 
management organizations with planning equipment, training, and 
exercises to build and sustain their capabilities to respond to 
any emergency or disaster including a terrorist incident.
    The President's formation of the Office of Homeland 
Security further improves the coordination of Federal programs 
and activities aimed at combating terrorism. FEMA is working 
closely with Director Ridge, the OHS, and other agencies to 
identify and develop the most effective ways to quickly build 
and enhance domestic preparedness for terrorist attacks.
    In January of this year the President took another 
important step to strengthen first-responder efforts to prepare 
for and respond to incidents of terrorism. The first-responder 
initiative in the President's 2003 budget calls for $3.5 
billion most of which would be distributed to States and local 
jurisdictions for planning efforts, critical equipment, and to 
train and exercise personnel.
    FEMA's Office of National Preparedness will administer 
these grants. ONP will also work with our Federal and State 
partners to coordinate all terrorism related first-responder 
programs. To begin addressing some of the lessons the first 
responder community learned on September 11th, ONP will develop 
national standards for inner-operability and compatibility in a 
number of areas including training, equipment, mutual aid, and 
exercising.
    The first-responder grants coupled with these standards 
will balance the needs for both flexibility and accountability 
at the State and local level.
    With respect to California, we continue to work very 
closely with the Governor's Office of Emergency Services and 
other State offices. Our mechanism for providing support in the 
past has been the Nunn-Lugar 120 cities initiative. Recently 
through our Terrorism Consequence Management Preparedness 
Assistance Grant Program we have been able to fund terrorism 
and weapons of mass destruction preparedness activities at the 
local level.
    Our funds are provided to the Governor's Office of 
Emergency Services and they in turn provide them to the 
California State Strategic Committee on Terrorism. The areas of 
focus for the committee includes cyberterrorism, equipment, 
training, intelligence and early warning systems, medical, 
health, resource allocation, and others.
    FEMA has also participated in senior official workshops, 
chemical weapons, tabletop exercises, as well as biological 
weapons tabletop exercises in the city of Long Beach and other 
California cities.
    FEMA is well prepared and equipped to respond to terrorist 
disasters. We are strengthening our preparedness efforts now so 
that State, tribal, and local governments and first-responders 
are well prepared for disasters and emergencies including 
incidents of terrorism.
    Continued coordination among all levels of government will 
ensure a safer America. Thank you for your time.
    [The prepared statement of Mr. Castleman follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.070
    
    [GRAPHIC] [TIFF OMITTED] T5125.071
    
    [GRAPHIC] [TIFF OMITTED] T5125.072
    
    [GRAPHIC] [TIFF OMITTED] T5125.073
    
    [GRAPHIC] [TIFF OMITTED] T5125.074
    
    [GRAPHIC] [TIFF OMITTED] T5125.075
    
    [GRAPHIC] [TIFF OMITTED] T5125.076
    
    Mr. Horn. Thank you. We now move to Ms. Dalton. Patricia 
Dalton is the Director of Strategic Issues of the U.S. General 
Accounting Office. For some people that don't really understand 
what GAO does, they don't just sit around and audit. That sort 
of went out 30 years ago. When Clarence Cannon died and Speaker 
Rayburn died they blocked us all the way in terms of doing 
programmatic research.
    The General Accounting Office began in 1921 and they have 
done a splendid job in the last 30 years under a number of fine 
Comptroller Generals of which none is finer than Mr. Walker, 
the current Comptroller General of the United States, the 
person with the best term in Washington, 15 years and you can't 
touch him. He works for Congress and he works for the American 
people.
    Ms. Dalton, not only on your statement but I think I 
counted about 50 different terrorism things you have put 
together with your colleagues. Go ahead and tell us if we have 
missed something this morning.
    Ms. Dalton. Thank you, Mr. Chairman. We appreciate your 
very kind remarks. Mr. Chairman, Congressman Honda, I 
appreciate the opportunity to be here in San Francisco to 
discuss issues critical to national preparedness.
    GAO has called for the development of a national strategy 
that will improve our overall preparedness. The creation of the 
Office of Homeland Security under the leadership of Tom Ridge 
is an important and potentially significant first-step.
    As it comes together, we believe there are three key 
aspects of the national strategy that should be included. First 
of all, a definition and clarification of the appropriate rules 
and responsibilities of Federal, State, and local entities on 
which we have heard a considerable amount here this morning at 
this hearing. Second, the establishment of goals and 
performance measures to guide our national preparedness 
efforts. Finally, a careful choice of the most appropriate 
tools of government to best implement the national strategy and 
achieve appropriate goals.
    I would like to very briefly discuss each one of these 
points. First, the roles and missions of Federal, State, and 
local entities need to be clarified. Although the Federal 
Government appears monolithic to many, in the area of terrorism 
prevention and response it has been anything but and we have 
certainly heard about that this morning. There are more than 40 
Federal entities that have a role in combating and responding 
to terrorism and 20 Federal entities alone in the bio-terrorism 
area.
    Concerns about coordination, fragmentation and Federal 
preparedness efforts are well founded. There has been no single 
leader in charge of the many terrorism related functions 
conducted by different Federal departments and agencies.
    This lack of leadership has resulted in the Federal 
Government's development of programs to assist State and local 
governments that often are similar and potentially duplicative.
    This has created confusion at the State and local level. 
State and local response organizations believe that Federal 
programs designed to improve preparedness are not well 
synchronized or organized and have called for a single focal 
point, a one-stop center in some cases.
    The second aspect the national strategy that we believe 
needs to be addressed is that performance and accountability 
measures need to be included in the strategy. Numerous 
discussions have been held about the need to enhance the 
Nation's preparedness but national preparedness goals and 
measurable performance indicators have not yet been developed.
    Clear objectives and measures are critical to a sustainable 
strategy that provides a framework for defining our roles and 
our responsibilities.
    Finally, appropriate tools need to be selected for 
designing Federal assistance. Our previous work on Federal 
programs suggest that the choice and design of policy tools 
have important consequences for performance and accountability.
    Governments have at their disposal a variety of policy 
instruments such as grants, regulations, tax incentives, and 
regional coordination and partnerships that they can use to 
motivate or mandate other levels of government and private 
sector entities to take action to address security concerns.
    For example, the Federal Government often uses grants to 
State and local governments as a means of delivering Federal 
programs. Grants can be designed to: one, target the funds of 
State and localities with the greatest needs; two, discourage 
the replacement of State and local funds with Federal funds 
through maintenance of effort requirements that recipients 
maintain their level of previous funding; and most importantly, 
three, strike a balance between accountability and flexibility 
to the grantees of State and local governments.
    Intergovernmental partnerships and regional coordination 
will also be important, particularly with respect to 
information sharing and mutual aid agreements. National 
preparedness is a complex mission that requires unusual 
interagency, interjurisdictional, and interorganizational 
cooperation. We have certainly heard some of the difficulties 
at the local level in this area.
    An illustration from the Federal perspective of the 
complexity of the issues that are being dealt with can be seen 
at the sea ports. At least 15 Federal agencies alone have some 
responsibility for our ports. Primary are the Coast Guard, 
Customs, and the Immigration and Naturalization Service, but 
there are many others.
    Local officials have emphasized the importance of regional 
coordination. Mutual aid agreements provide a structure for 
assistance and for sharing resources among jurisdictions in 
response to an emergency. They will be critical in any response 
to emergencies.
    Mr. Chairman, in conclusion, as increasing demands are 
placed on budgets at all levels of government, it will be 
necessary to make sound choices to maintain physical stability. 
All levels of government and the private sector will have to 
communicate and cooperate effectively with each other across a 
broad range of issues to develop a national strategy to better 
target available resources and to use all of our available 
resources to address the urgent national preparedness needs.
    This completes my prepared statement. I would be pleased to 
answer any question.
    [The prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.077
    
    [GRAPHIC] [TIFF OMITTED] T5125.078
    
    [GRAPHIC] [TIFF OMITTED] T5125.079
    
    [GRAPHIC] [TIFF OMITTED] T5125.080
    
    [GRAPHIC] [TIFF OMITTED] T5125.081
    
    [GRAPHIC] [TIFF OMITTED] T5125.082
    
    [GRAPHIC] [TIFF OMITTED] T5125.083
    
    [GRAPHIC] [TIFF OMITTED] T5125.084
    
    [GRAPHIC] [TIFF OMITTED] T5125.085
    
    [GRAPHIC] [TIFF OMITTED] T5125.086
    
    [GRAPHIC] [TIFF OMITTED] T5125.087
    
    [GRAPHIC] [TIFF OMITTED] T5125.088
    
    [GRAPHIC] [TIFF OMITTED] T5125.089
    
    [GRAPHIC] [TIFF OMITTED] T5125.090
    
    [GRAPHIC] [TIFF OMITTED] T5125.091
    
    [GRAPHIC] [TIFF OMITTED] T5125.092
    
    [GRAPHIC] [TIFF OMITTED] T5125.093
    
    [GRAPHIC] [TIFF OMITTED] T5125.094
    
    [GRAPHIC] [TIFF OMITTED] T5125.095
    
    [GRAPHIC] [TIFF OMITTED] T5125.096
    
    [GRAPHIC] [TIFF OMITTED] T5125.097
    
    [GRAPHIC] [TIFF OMITTED] T5125.098
    
    [GRAPHIC] [TIFF OMITTED] T5125.099
    
    Mr. Horn. Thank you. We will now go to questions and I've 
got a few just to wrap up the last panel and this one.
    Mr. Riordan, we understand that the Department of Defense 
has a list of biological agents that it is unwilling to share 
with water districts. Is that true?
    Mr. Riordan. There was a published report that there was a 
list of available agents that we could use as a tool for 
detecting contamination in water systems. It was published 
prior to September 11th and then right after September 11th, 
obviously, everyone started stepping-up the procedure to start 
figuring out what we need to test for. We went to the same Web 
sites and all that information was stripped off.
    The same access to that information was now gone because it 
was considered classified information. While it was available 
prior to that, there wasn't enough preparedness efforts taking 
care of prior to September 11th to give that information out or 
disseminate it. When people were aware of it they went to look 
for it again and they discovered that it was now considered 
confidential or classified so we couldn't get that same 
information.
    Mr. Horn. Now, we have very fine laboratories at Walter 
Reed. We have the Food and Drug, we have the CDC. I just wonder 
what is your feeling on that, Dr. Bice, the Director of the 
Stockpile, but you are a major employee of the Center for 
Disease Control and Prevention. What do you think about this 
business of not sharing biological agents with water districts?
    Dr. Bice. Mr. Chairman, that is a tough question for me to 
answer. Let me just say that I am fully aware of the 
complexities after September 11th of classifying data and what 
we thought was public information prior to that time that we 
all are now concerned about that information getting into the 
wrong hands.
    At the same time we are a public health and prevention 
agency. We go out of our way to share as much data as we 
possibly can with our colleagues in water districts, as well as 
any other health related arena.
    But there is a classic dilemma when it comes to sharing 
information which could potentially be useful to terrorists and 
sharing that same information with our colleagues to help them 
better prepare. Guidelines in this regard would be exceedingly 
helpful and I know that Governor Ridge's Office is moving in 
that direction.
    Mr. Horn. OK. That's helpful Would you go back to the 
smallpox issue which we were talking about. Are those 30-year-
old vaccines still potent?
    Dr. Bice. Yes, sir. They are.
    Mr. Horn. They are? So they can be used?
    Dr. Bice. That's affirmative. Yes, sir. They can.
    Mr. Horn. Have we played out this thing with some of the 
countries that have that and how many vials of the vaccines do 
we have and if you were a foreign power or whatever, that would 
take how many and have we got enough in the warehouses now?
    Dr. Bice. Sir, the answer to that question is somewhat 
complex. I'm not an intelligence expert and so, Mr. Mefford, I 
will defer that aspect of an answer to colleagues in FBI and 
other intelligence agencies.
    With respect to the vaccines that are either being produced 
today under contract to HHS or that are in stockpiles, we will 
by the end of this calendar year buy enough vaccine to 
vaccinate the citizens of the United States should that become 
necessary.
    Mr. Horn. OK. Let's see if we have any little roundup 
things to get this.
    Mr. Mefford, I think we were sort of surprised to hear that 
there is still a communication gap when it comes to 
intelligence. I know the FBI is doing a lot to do it and I 
agree with them that if you are going to give it to somebody in 
a police department or whatever, you are going to check that 
person out so that they are not under pressure and they are not 
giving out data. I just wondered here tell us a little on where 
the FBI is going on this.
    Mr. Mefford. Yes, Mr. Chairman. In San Francisco we have 
developed a program where every member, non-FBI member of the 
Joint Terrorism Task Force receives a top secret clearance. In 
addition, their agency can designate other officers from all of 
the 24 additional agencies that participate in this task force. 
We are undergoing, right now, a number of security 
classification background investigations to give designated 
personnel and all of the participants of the task force the 
necessary security clearances to receive the raw data.
    Having said that, as you know, much of the information can 
be distilled and we can release it in a public form. Clearly we 
look for opportunities to do that. Our problem is we need to 
better enhance our capabilities to make rhyme or reason of the 
vast amount of intelligence data that is out there.
    Sometimes we are overwhelmed with information. As you know, 
we are struggling with an archaic computer system within the 
FBI; but we need to do a better job of analyzing the data and 
determining exactly what is relevant; and then getting that 
threat information to the local and State agencies that have a 
need to know. We have a ways to go, but the Director has 
identified our weaknesses; and we are moving, I think, as 
rapidly as we possibly can to improve.
    Mr. Horn. That's good.
    I now yield 10 minutes to my colleague, Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. I want to thank the 
witnesses for testifying today also.
    One of the concerns that came up earlier in the first panel 
was funding and grant processes. To both Mr. Castleman and Ms. 
Dalton, perhaps you can respond to the question. Will there be 
a one process or one stop mechanism for grants and flow of 
revenue for the Federal down to the local government?
    Mr. Castleman. We are still developing the mechanism which 
we hope to be very practical and user friendly for that 
process. We've been in the business of grants management for 
some time. Most recently another subject, fire grants, we were 
able to do that over the Internet to make it easier for local 
fire departments to apply for grants. We are hoping for 
something simple and easy to use for first provider grants as 
well, but that is still under development.
    Mr. Honda. So it is work in progress?
    Mr. Castleman. Yes.
    Mr. Honda. The flow of the revenues, would that be done 
functionally or is it structural meaning will it go through 
State, county, local, or will it go to entities that are more 
complex that could go directly versus counties that need help 
from the State?
    Mr. Castleman. It will go to the State for determination 
down to the local level from the State.
    Ms. Dalton. One of the issues that will need to be 
addressed is that there are multiple sources of funding. There 
are a number of Federal agencies that are involved in giving 
money to the State and local governments. FEMA does have a 
primary responsibility. One of the things I believe the States 
and local governments are seeing is not just one face to the 
Federal Government but multiple faces.
    There are some models within the Federal Government in 
terms of distribution of funds. For example, in our training 
and employment programs there has been a move toward one stop 
centers to funnel out services and that certainly would be a 
possible model to be examined.
    What FEMA alone is doing is a good step in the right 
direction but we have to look at the total government and 
present that single face and hopefully the national strategy 
that Governor Ridge is developing will start addressing some of 
those issues. It certainly is a problem that we need to be 
dealing with.
    Mr. Honda. So what I hear you saying is that FEMA has just 
put one tree in the forest.
    Ms. Dalton. Yes, sir.
    Mr. Honda. In your report you indicated there are many 
agencies with many grant sources. Have you suggestions on how 
that can be put out there electronically so that people that 
want to write grants can look at a myriad at once and pull from 
various sources so that they don't have to go through a lot of 
repetitious work? Is there a way to make it simple?
    Ms. Dalton. Certainly I think there are ways to make it 
simpler than what it is. It will take a concerted and 
coordinated effort on the part of the Federal Government, the 
Congress, and the executive branch in order to address this 
issue.
    Mr. Honda. So you are saying you can identify it but it is 
not your purview to correct it? It's up to somebody else to 
sort of figure out how to do that?
    Ms. Dalton. Right. I think the national strategy should 
address some of these issues through the budget process. 
Hopefully there will be some solutions. There are, as I said, 
some models within the Federal Government alone of trying to 
integrate the delivery of services and I think that is what we 
are talking about here.
    Mr. Honda. I heard you use that term national strategy. Is 
that term applicable to a variety of things that we need to do 
within the context of counterterrorism?
    Ms. Dalton. The national strategy we believe will at least 
put a framework and define roles and responsibilities, not just 
for the Federal Government but should be State, local, and 
private sector.
    Mr. Honda. OK.
    Mr. Riordan. Just one additional item is typical of most 
grant applications you have to reveal a report of some sort. I 
think it is very important to maintain the security of the 
information that is presided or presented in any reports that 
do come out of grants.
    That is one of the concerns we did have initially of the 
EPA grants that came up for water systems, vulnerability 
assessments. We don't want to release a lot of information on 
what our vulnerabilities are. I think that is very critical as 
well is whatever grant process is decided upon.
    Mr. Honda. There has been a term out there called national 
threat risk assessment. Is that being done? If so, by whom? If 
we are doing it, when will it be ready? Does anybody know?
    Mr. Riordan. Well, I do know for the process for the EPA 
grants, EPA worked closely with Sandia National Labs on 
applying their risk assessment model to the water industry.
    They just finished eight different workshops across the 
Nation trying to provide this information to the water 
utilities on how to apply this risk assessment model to the 
water industry which presents a huge issue for us as a water 
industry because our system spans such a large area, maybe 90 
miles worth of facility.
    It is not like trying to secure one facility. It may be a 
multitude of facilities over a long or large area which creates 
a major concern for us because you can't apply the same 
information. I do know that is one risk model that is being 
presented out there.
    Mr. Honda. Are there other models?
    Ms. Dalton. Yes, there are. Usually the risk assessment 
models are targeted toward a specific sector. Currently there 
are a number of different models that are being used at the 
Federal level for the various agencies. As Chairman Horn 
pointed out, the General Accounting Office has some 60 reports 
in these various areas, some of which are dealing with the risk 
assessments.
    Mr. Honda. Thank you. I think it was Dr. Bice that answered 
the question that you have sufficient vaccines for this country 
for smallpox. When you answered yes for everyone in this 
country, then I assume that you are saying that by the end of 
the year there would be approximately 340 million vaccines 
available?
    Dr. Bice. That is approximately the case. Yes sir.
    Mr. Honda. And the deployment of the vaccines to local 
hospitals and health centers, how will that be done?
    Dr. Bice. Well, sir, it will be held in a repository--
several repositories around the United States. It is a policy 
decision at the congressional level. At HHS it is above my pay 
grade, sir, to answer the question but, the truth is, we will 
have the vaccines. How we will distribute it in an emergency we 
have those plans that we've drawn up in the National 
Pharmaceutical Stockpile Program, but the truth of the matter 
is there are policy decisions that have to precursor that.
    Mr. Honda. Such as cost of distribution and cost of 
acquisition? Is that also part of that? Is there a cost to 
local government on that?
    Dr. Bice. There would definitely be a cost. Not so much of 
acquisition but a cost of storage and distribution. Once it hit 
a State level airfield, a State level facility for them to 
further distribute it out to people they would incur human 
resource costs and transportation costs and others. Yes, sir.
    Mr. Honda. You said that the stockpile is still viable. The 
new stock is it more viable or equal viability?
    Dr. Bice. I guess the easiest way to answer the question is 
that they are both viable vaccines. They both can be used, the 
new vaccines as well as the vaccine that is in storage.
    Mr. Honda. So you are saying they are of equal viability 
and use even though they have been stored for a couple of 
decades?
    Dr. Bice. A number of years. Yes, sir.
    Mr. Honda. I guess, Ms. Cherry, did you have a comment?
    Ms. Cherry. Yes. Thank you. I would like to add a little 
bit on the Sandia Lab vulnerability assessment tool being used 
by water systems. This model was originally developed for our 
nuclear power facilities and then it was modified to be applied 
to water systems.
    I think it is a good model and has applications for our 
larger water systems but it lacks the analyses of the soft side 
of water systems being management, operation, and 
administration. It is important that whatever model be applied 
to water systems, that it look at all aspects of the water 
systems, not just the infrastructure and water system 
components.
    Mr. Honda. What did you mean by soft?
    Ms. Cherry. The model looks at the physical infrastructure 
of the water system, pumps and pipelines and treatment, and it 
doesn't get into the specifics of management, operation, and 
administration.
    Mr. Honda. Thank you, Mr. Chair.
    Mr. Riordan. We would concur as a large water utility we 
found the same thing. Even though we all attended that same 
training there were a lot of issues not covered by that 
assessment process.
    Dr. Burton. If I could, I would just share a comment on the 
smallpox discussion. Dr. D. A. Henderson and the Office of 
Public Health Preparedness has convened a group under the 
Center for Disease Control and Advisory Immunization Practices 
Group that will be specifically looking at recommendations and 
policy implications of how best to use the smallpox vaccine as 
it becomes available. The timeline he set for that is that the 
recommendations will be out of that group, national cross-
disciplinary group, by sometime late summer but before the 
vaccine will be fully available so we will be ready to use it 
as best we can.
    Mr. Horn. Well, I want to thank this panel and the first 
panel. It's been a very useful and, I think, very realistic 
matter. Thank you for taking your time out. You all have a lot 
of things to do. All of these things don't happen unless a lot 
of people relate to this.
    Our subcommittee staff is headed by the gentleman in the 
back there, J. Russell George, Staff Director and Chief 
Counsel. To my left for this particular hearing is Bonnie 
Heald, the Deputy Staff Director, Justin Paulhamus, the 
Majority Clerk, is that very high guy that comes and gets 
things done. Thank you, Justin.
    Earl Pierce had to stay at home. He was the professional 
staff member who was not here today but helped coordinate 
everyone's testimony. Then from Congressman Honda's office, 
Ernest Baynard is the Communications Director and we appreciate 
all of his help. Speaking of communications director, David 
Schwaegler of the Lawrence Livermore National Laboratory also 
was very helpful on the communications. We are very grateful to 
the judge of this court, Judge Patel and her staff. We 
appreciate very much what we could do and couldn't do and did. 
We also have the General Services Administration, James Lew, 
Property Manager, and Ian Keye, Operational Analyst.
    And the court reporters are George Palmer and Susan Palmer. 
That's a tough job with all the people and different things as 
we go across the country. Thank you all. With that, we are 
adjourned.
    [Whereupon, at 12:35 p.m., the hearing was adjourned.]


</pre></body></html>
